CAPITAL CASE
EXECUTION DATE – JULY 15, 2020
No. 20IN THE

Supreme Court of the United States
WESLEY IRA PURKEY,
Petitioner,
v.
WARDEN OF USP TERRE HAUTE,
UNITED STATES OF AMERICA,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

REBECCA E. WOODMAN
ATTORNEY AT LAW, L.C.
1263 W. 72nd Terrace
Kansas City, MO 64114
(785) 979-3672
MICHELLE M. LAW
ASSISTANT FEDERAL
PUBLIC DEFENDER,
WESTERN DISTRICT OF
MISSOURI
901 St. Louis Street
Suite 801
Springfield, MO 65806
(417) 873-9022

ALAN E. SCHOENFELD
Counsel of Record
STEPHANIE SIMON
RYAN CHABOT
JULIA C. PILCER
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 937-7294
alan.schoenfeld@wilmerhale.com

QUESTION PRESENTED
In Martinez v. Ryan, 566 U.S. 1 (2012), and Trevino
v. Thaler, 569 U.S. 413 (2013), this Court held that, for a
state prisoner whose first opportunity to raise a claim
of ineffective assistance of trial counsel is in an initial
collateral-review proceeding, procedural default will
not bar review of those claims in proceedings pursuant
to 28 U.S.C. § 2254 when that default was the result of
ineffective assistance of initial collateral-review counsel. Like the state prisoners in Martinez and Trevino, a
federal capital prisoner generally cannot raise a claim
of ineffective assistance of trial counsel on direct review; his first opportunity to raise such claims is on a
motion under 28 U.S.C. § 2255. See Massaro v. United
States, 538 U.S. 500, 508 (2003). To ensure that these
claims are adequately developed and presented, federal
capital prisoners are guaranteed counsel through postconviction proceedings. 18 U.S.C. § 3599.
The question presented is: Whether and by what
procedural mechanism federal capital prisoners who
are in the analogous position of the state prisoners in
Martinez and Trevino—i.e., whose substantial claims of
ineffective assistance of trial counsel were defaulted by
ineffective § 2255 counsel—may seek review of such
claims.

(i)

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ............................................ i
TABLE OF AUTHORITIES ........................................... v
INTRODUCTION .............................................................. 1
OPINIONS BELOW .......................................................... 2
JURISDICTION ................................................................. 3
STATUTORY PROVISIONS INVOLVED .................. 3
STATEMENT ..................................................................... 3
A. Trial Court Proceedings ....................................... 3
B. § 2255 Proceedings ................................................ 5
C. § 2241 Proceedings ................................................ 6
REASONS FOR GRANTING THE PETITION ...........11
I.

THE CIRCUITS ARE DIVIDED ON WHETHER
AND BY WHAT PROCEDURAL MECHANISM
FEDERAL PRISONERS WHOSE SUBSTANTIAL CLAIMS OF INEFFECTIVE ASSISTANCE OF TRIAL COUNSEL WERE DEFAULTED BY INEFFECTIVE § 2255 COUNSEL MAY SEEK REVIEW ............................................ 11

II. THE SEVENTH CIRCUIT’S DECISION CONFLICTS WITH MARTINEZ AND TREVINO ................. 15
III. THE QUESTION PRESENTED IS IMPORTANT
AND MERITS THIS COURT’S IMMEDIATE
REVIEW ........................................................................ 18
IV. THIS CASE IS AN IDEAL VEHICLE ........................... 22
CONCLUSION ................................................................. 23

(iii)

iv
TABLE OF CONTENTS—Continued
Page
APPENDIX A: Opinion of the United States
Court of Appeals for the Seventh Circuit,
dated July 2, 2020 ....................................................... 1a
APPENDIX B: Order of the United States
District Court for the Southern District of
Indiana denying petition for a writ of habeas corpus, dated November 20, 2019 ..................... 29a
APPENDIX C: Order of the United States
Court of Appeals for the Seventh Circuit
denying motion for reconsideration, dated
July 13, 2020 .............................................................. 57a
APPENDIX D: Relevant Statutory Provisions
28 U.S.C. § 2241 ........................................................ 63a
28 U.S.C. § 2255 ........................................................ 65a

v
TABLE OF AUTHORITIES
CASES
Page(s)
Beck v. Alabama, 447 U.S. 625 (1980) ............................ 21
Coleman v. Thompson, 501 U.S. 722 (1991) .................. 11
Davila v. Davis, 137 S. Ct. 2058 (2017)..................... 12, 18
Fuller v. Bowersox, 202 F.3d 1053 (8th Cir.
2000) ............................................................................... 4
Gideon v. Wainwright, 372 U. S. 335 (1963) .................. 18
In re Federal Bureau of Prisons’ Execution
Protocol Cases, 955 F.3d 106 (D.C. Cir.
2020), cert. denied sub nom. Bourgeois v.
Barr, No. 19-1348, 2020 WL 3492763 (U.S.
June 29, 2020) ................................................................ 6
Jackman v. Shartle, 535 F. App’x 87 (3d Cir.
2013) ............................................................................. 13
Mann v. Thalacker, 246 F.3d 1092 (8th Cir. 2001) ............ 4
Martel v. Clair, 565 U.S. 648 (2012)................................ 19
Martinez v. Ryan, 566 U.S. 1 (2012) ..... 2, 11, 12, 16, 18, 19
Massaro v. United States, 538 U.S. 500 (2003) ....... 16, 20
Nken v. Holder, 556 U.S. 418 (2009) ............................... 10
Prost v. Anderson, 636 F.3d 578 (10th Cir. 2011) ........... 17
Ramirez v. United States, 799 F.3d 845 (7th
Cir. 2015) ................................................................ 14, 16
Smith v. Phillips, 455 U.S. 209 (1982) .............................. 4
Spaziano v. Florida, 468 U.S. 447 (1984) ....................... 20
Strickland v. Washington, 466 U.S. 668 (1984) ............... 6

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Trevino v. Thaler, 569 U.S. 413 (2013) ....................... 2, 16
United States v. Lee, 792 F.3d 1021 (8th Cir.
2015) ............................................................................. 15
United States v. Purkey, 428 F.3d 738 (8th Cir.
2005) ............................................................................... 5
United States v. Sheppard, 742 F. App’x 599
(3d Cir. 2018) ............................................................... 14
United States v. Tucker, 243 F.3d 499 (8th Cir.
2001) ............................................................................... 4
Vinyard v. United States, 804 F.3d 1218 (7th
Cir. 2015) ...................................................................... 16
DOCKETED CASES
Abdur-Rahiim v. Holland, No. 15-5297 (6th Cir.).......... 13
Roane v. Barr, No. 19-mc-145 (D.D.C.) ............................ 6
STATUTES AND RULES
18 U.S.C.
§ 1201 .............................................................................. 3
§ 3599 ............................................................................ 19
28 U.S.C.
§ 1254 .............................................................................. 3
§ 2241 ................................................................... passim
§ 2254 ...................................................................... 14, 15
§ 2255 ................................................................... passim
Fed. R. Civ. P. 60 ............................................................... 14
Fed. R. Crim. P. 44 ............................................................ 16
S. Ct. R. 10 .......................................................................... 18

vii
TABLE OF AUTHORITIES—Continued
Page(s)
OTHER AUTHORITIES
Death Penalty Information Center, Federal
Death
Penalty,
https://bit.ly/2CaugVI
(visited July 15, 2020)........................................... 21, 22
Rose, David, Death row: the lawyer who keeps
losing, The Guardian (Nov. 24, 2016),
https://bit.ly/3fwVDIp ................................................. 3
Trigg, Lisa, Federal Execution Decision Hardly Shocks ISU Crime, Policy Expert, Tribune Star (July 25, 2019), https://bit.ly/
308HOcK ...................................................................... 22
United States Department of Justice, Press
Release No. 19-807, Federal Government to
Resume Capital Punishment After Nearly
Two Decade Lapse (July 25, 2019), https://
bit.ly/2Z8y8Qg .............................................................. 6

IN THE

Supreme Court of the United States
No. 20WESLEY PURKEY,
Petitioner,
v.
WARDEN OF USP TERRE HAUTE, UNITED STATES OF
AMERICA,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
Wesley Purkey respectfully petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Seventh Circuit in this case.
INTRODUCTION
Mr. Purkey was convicted and sentenced to death
by a jury that undisputedly included one juror who was
presumptively biased, because she had suffered a similar assault as the victim of Mr. Purkey’s alleged crime,
at the same age, and even shared the same name. His
trial counsel had the juror questionnaire reflecting that
bias yet did nothing to prevent that juror from deliberating and voting to sentence Mr. Purkey to death. That
is clear structural error as a matter of law. In addition,
his trial counsel put on only a meager mitigation case

2
after a halfhearted investigation that omitted generations of important family history and failed to develop
the extensive abuse Mr. Purkey suffered at home, at
school, or at church at the hands of his parish priest.
Yet no court has ever reviewed those claims on its merits—a fact the Seventh Circuit found “troubling”—
because Mr. Purkey also received ineffective assistance
at his § 2255 proceeding. As a result, Mr. Purkey’s
right to the effective assistance of counsel at trial—the
“bedrock” principle of our system of criminal justice—
has never been vindicated.
This confluence of circumstances is identical to the
situations that prompted this Court in Martinez v.
Ryan, 566 U.S. 1 (2012), and Trevino v. Thaler, 569
U.S. 413 (2013), to hold that where a state prisoner receives ineffective assistance at his initial-review collateral proceeding, some further opportunity for review of
substantial claims of ineffective assistance of trial counsel must be made available. For federal prisoners, the
principle articulated in Martinez and Trevino is no less
applicable. Here, Mr. Purkey sought review of his substantial ineffective assistance of trial counsel claims under § 2241, on the ground that § 2255 counsel’s ineffectiveness rendered the § 2255 proceeding inadequate to
test his conviction and sentence. The Seventh Circuit’s
rejection of that claim contravenes this Court’s decisions in Martinez and Trevino and implicates a conflict
among the circuits as to whether and how federal prisoners are protected by those decisions, if at all.
OPINIONS BELOW
The court of appeals’ opinion (App. 1a-27a) is unreported and is available at 2020 WL 3603779. The opinion of the district court (App. 29a-56a) is also unreported and is available at 2019 WL 6170069.

3
JURISDICTION
The court of appeals entered judgment on July 2,
2020. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
STATUTORY PROVISIONS INVOLVED
The statutory provisions involved are 28 U.S.C.
§§ 2241, 2255. They are reproduced in the Appendix to
this brief.
STATEMENT
A. Trial Court Proceedings
Mr. Purkey was convicted and sentenced to death
in the U.S. District Court for the Western District of
Missouri on one count of kidnapping resulting in death,
in violation of 18 U.S.C. § 1201. See App. 4a-6a. The
charge stemmed from the 1998 kidnapping, rape, and
murder of sixteen-year-old Jennifer Long. See App. 3a4a. Mr. Purkey was represented by lead counsel Frederick Duchardt, who has had more clients sentenced to
death in the federal system than any other attorney,
and at times by Laura O’Sullivan. See App. 4a; Rose,
Death row: the lawyer who keeps losing, The Guardian
(Nov. 24, 2016), https://bit.ly/3fwVDIp. Trial counsel
was constitutionally ineffective at every stage of the
proceeding.
Most notably, trial counsel was ineffective during
jury selection. Mr. Duchardt failed to object to the
seating of a juror whose striking similarities to the victim constituted a clear basis for a challenge for cause.
App. 20a. Juror 13 disclosed on her juror form that she
had been the victim of an attempted rape, that at the
time of her assault she had been the same age as the
victim, and that she even shared the victim’s first

4
name. Id. A prospective juror with such striking similarities to the victim of the alleged crime is presumed
biased as a matter of law. See, e.g., Smith v. Phillips,
455 U.S. 209, 221-224 (1982) (O’Connor, J., concurring).1
Yet Mr. Duchardt failed to move to strike her or even
to inquire whether she could set her presumptive bias
aside. The case proceeded to trial with Juror 13 empaneled (App. 20a)—a structural error that infected the
entire trial.
Trial counsel was also ineffective during the penalty phase of the trial. Mr. Duchardt did not adequately
develop the record of the unrelenting mental, physical,
and sexual abuse by his parents, teachers, and clergy
that Mr. Purkey endured throughout his childhood, his
history of traumatic head injury, and his extensive history of substance abuse. Despite asking the court for
funding for one, trial counsel did not hire a dedicated
mitigation expert. Dist. Ct. App. 2115-2116, 2129.2 Instead, he hired a personal friend as a fact investigator
and asked him to conduct the mitigation investigation,
even though the friend lacked the specialized qualifications required of a mitigation expert for a capital case.
1

The law was clear on that point in the Eighth Circuit (where
Mr. Purkey was tried) at the time of Mr. Purkey’s trial and conviction, so there is no question that counsel was ineffective for failing
to strike her. See Fuller v. Bowersox, 202 F.3d 1053, 1056 (8th Cir.
2000) (“For habeas corpus purposes, such ‘bias may be found either
by an express admission, or by proof of specific facts which show
such a close connection to the facts at trial that bias is presumed.’”); see also United States v. Tucker, 243 F.3d 499, 509 (8th
Cir. 2001); Mann v. Thalacker, 246 F.3d 1092, 1097 (8th Cir. 2001).
2

The Appendix appended to Mr. Purkey’s petition for a writ
of habeas corpus in the District Court is cited herein as “Dist. Ct.
App.”

5
Dist. Ct. App. 1182, 1188-1190, 1194, 1438. Because of
the inadequate investigation, the jury only heard scant
evidence of Mr. Purkey’s history of alcohol and drug
dependence and history of physical abuse. While § 2255
counsel presented additional evidence of Mr. Purkey’s
history of sexual abuse by his mother, see App. 8a, no
one has ever heard the critical evidence developed by
§ 2241 counsel of generations of important family history and any mention of the extensive abuse Mr. Purkey
suffered outside his home while at school or at church
at the hands of his parish priest, see Dist. Ct. App. 7888, 507-522, 545.
Mr. Purkey, still represented by trial counsel, appealed; the Eighth Circuit affirmed. United States v.
Purkey, 428 F.3d 738 (8th Cir. 2005).
B. § 2255 Proceedings
In 2007, Mr. Purkey, represented by new counsel,
timely filed a motion for relief pursuant to 28 U.S.C.
§ 2255 in the U.S. District Court for the Western District of Missouri. App. 6a. Initial-review collateral
counsel raised a limited set of ineffective-assistance
claims, but failed to raise the biased juror and extensive overlooked mitigation evidence relating to the intergenerational trauma in the Purkey family and Mr.
Purkey’s years-long history of abuse at church and
school. See App. 6a, 20a-22a. Importantly, however,
despite the importance of the evidence of Mr. Purkey’s
history of trauma and mental illness, § 2255 counsel did
not hire any new experts to examine him. Dist. Ct.
App. 496-500.
Without holding an evidentiary hearing, the district court concluded Mr. Purkey had not met his burden under either the deficient-performance or preju-

6
dice prongs of Strickland v. Washington, 466 U.S. 668
(1984). C.A. Supp. App. 79.3 The court relied heavily
on a 117-page sworn affidavit from Mr. Duchardt that
affirmatively advocated against Mr. Purkey’s claims
and offered numerous false claims regarding the investigation and trial. See C.A. Supp. App. 71-79. The
Eighth Circuit affirmed. C.A. Supp. App. 31.
C. § 2241 Proceedings
On August 27, 2019, Mr. Purkey, again represented
by new counsel, filed a petition for habeas corpus in the
U.S. District Court for the Southern District of Indiana—the district in which he is confined—pursuant to
28 U.S.C. § 2241.4 The petition challenged Mr. Purkey’s
conviction and sentence on several grounds, including
3

The Supplemental Appendix appended to the Brief for Petitioner-Appellant before the Seventh Circuit (ECF No. 10) is cited
herein as “C.A. Supp. App.”
4

On July 25, 2019, the U.S. Department of Justice announced
that it would resume executions after a 16-year hiatus. DOJ, Press
Release No. 19-807, Federal Government to Resume Capital Punishment After Nearly Two Decade Lapse, https://bit.ly/2Z8y8Qg.
Mr. Purkey’s execution date was set for December 13, 2019. In
November 2019, U.S. District Court for the District of Columbia
preliminarily enjoined his execution (and three others) under the
new protocol, which the court held contravened the requirements
of the Federal Death Penalty Act. Roane v. Barr, No. 19-mc-145
(D.D.C. Nov. 20, 2019), ECF No. 50. The Government appealed
the injunction and, on April 7, 2020, a divided panel of the U.S.
Court of Appeals for the District of Columbia Circuit vacated it.
In re Federal Bureau of Prisons’ Execution Protocol Cases, 955
F.3d 106 (D.C. Cir. 2020), cert. denied sub nom. Bourgeois v. Barr,
No. 19-1348, 2020 WL 3492763 (U.S. June 29, 2020). Immediately
after the mandate issued from the D.C. Circuit, and while a petition for a writ of certiorari was pending before this Court, the
Government set a new execution for Mr. Purkey of July 15, 2020.

7
that he had received ineffective assistance of trial counsel because trial counsel failed to strike a biased juror
and failed to present critical mitigation evidence. The
mitigation evidence presented in Mr. Purkey’s § 2241
petition went “well beyond the evidence that postconviction counsel presented [to the Eighth Circuit].”
App. 22a, 25a.
With respect to jurisdiction, Mr. Purkey argued
that this was not a prohibited “second or successive”
§ 2255 petition, and that he was permitted to file a
§ 2241 petition by operation of the Savings Clause of
§ 2255(e). App. 12a. As a general rule, a federal prisoner who wishes to attack his conviction or sentence
must do so by motion brought pursuant to § 2255(a) in
the federal district where he was sentenced. A “second
or successive motion” is generally not permitted, unless
the movant can point to either (1) “newly discovered
evidence” that would undermine his conviction, or (2) a
new, retroactive “rule of constitutional law … that was
previously unavailable.” 28 U.S.C. § 2255(h). However,
the Savings Clause, codified in § 2255(e), creates an exception to the bar on successive habeas applications
where “it … appears that the remedy by motion [under
§ 2255] is inadequate or ineffective to test the legality
of his detention.” Under those circumstances, a federal
prisoner may file a petition for a writ of habeas corpus
under § 2241 in the federal district where he is confined. Citing Martinez and Trevino, Mr. Purkey argued
that a federal prisoner—who, due to the ineffective assistance of § 2255 counsel, was denied a reasonable opportunity to present his substantial ineffective assistance of trial counsel claim—may seek relief under
§ 2241. See App. 18a. Under those circumstances, he
argued, § 2255 is “inadequate or ineffective” to test the

8
legality of his conviction and sentence, thus triggering
the Savings Clause of § 2255(e). See App. 18a-19a.
On November 20, 2019, the district court denied
Mr. Purkey’s petition, concluding that it was barred by
§ 2255(h), which generally prohibits the filing of “second or successive” federal habeas petitions. See App.
53a-55a. The court further held that the Savings
Clause codified in § 2255(e) was not available to Mr.
Purkey. Even if Mr. Purkey’s initial § 2255 counsel was
constitutionally ineffective, the court reasoned, that
would not render the initial § 2255 proceedings “inadequate or ineffective” to test the legality of Mr. Purkey’s
detention within the meaning of the Clause. See App.
51a-55a. In reaching that conclusion, the district court
distinguished Martinez and Trevino, where the Supreme Court held that procedural default does not bar
federal habeas review of a state prisoner’s substantial
claims of ineffective assistance of trial counsel when
that default was the result of ineffective assistance of
initial-review collateral counsel. Those decisions, the
district court said, did not “involve the Savings Clause”
and therefore were “not controlling.” App. 49a.
On July 2, 2020, the Seventh Circuit affirmed. The
court (Wood, Brennan, St. Eve, JJ.) recognized that a
federal prisoner who receives ineffective assistance of
§ 2255 counsel is functionally in the same position as the
state prisoners in Martinez and Trevino. However, unlike those state prisoners, “the availability of further
relief … is not a simple matter of federal common law,”
but is instead “governed by statutes.” App. 25a. To
benefit from the Savings Clause in § 2255(e), the court
reasoned, “there must be a compelling showing that, as
a practical matter, it would be impossible to use section
2255 to cure a fundamental problem.” App. 20a (emphasis added). Mr. Purkey could not make such a show-

9
ing because at the time he filed his § 2255 petition, the
court found, “nothing formally prevented him from
raising each of the three errors he now seeks to raise in
his petition under 2241.” App. 20a (emphasis added).
The court nonetheless explained that Mr. Purkey’s
underlying ineffective assistance of trial counsel claims
were “serious”—specifically, those concerning Juror 13
and the inadequate mitigation case—and that it found
“troubling” the fact that no court had ever considered
those claims. App. 20a, 22a, 25a. The court emphasized
that it had “rejected those points not on the merits, but
because of [its] understanding of the safety valve language,” but recognized that if its “reading of the safety
valve is too restrictive, there would be significant issues to litigate.” App. 26a. For that reason—and in
recognition that Mr. Purkey had moved with appropriate dispatch in filing his § 2241 petition, that Mr.
Purkey “faces categorically irreparable injury—death”
absent a stay, that a stay would “not substantially harm
the government, which has waited at least seven years
to move forward with Purkey’s case,” and that “the
public interest is surely served by treating this case
with the same time for consideration and deliberation
that we would give any case”—the Seventh Circuit issued a brief stay “to permit the orderly conclusion of
the proceedings” in that court. App. 26a-27a.
Less than 36 hours after the Seventh Circuit issued
its decision, at approximately 2 a.m. on July 4, the Government filed a petition for rehearing seeking to immediately vacate the stay. On July 6, the Seventh Circuit
issued an order directing Mr. Purkey to respond to the
Government’s petition by 12 p.m. on July 10, which Mr.
Purkey did. Rather than wait for the Seventh Circuit
to decide its petition, however, the Government filed
another emergency motion with this Court on Satur-

10
day, July 11, asking this Court to vacate the stay entered by the Seventh Circuit, primarily on the ground
that the panel had not found likelihood of success on the
merits, as required by Nken v. Holder, 556 U.S. 418
(2009).
On July 13, the Seventh Circuit panel issued an order denying the Government’s request to vacate the
stay. See App. 61a. The panel clarified that, in granting the stay, it “concluded that Purkey has made a
strong argument to the effect that, under … Martinez
… and Trevino …, a habeas corpus petitioner who has
never been able to test the effectiveness of his counsel
under the Sixth Amendment can overcome his procedural default in failing to do so in his first and only motion under section 2255” and that, for that reason, he
“would be entitled to a hearing on the merits using the
vehicle of section 2241.” App. 60a. Accordingly, the
panel explained, “we deem Purkey’s chances of success
on this point to be strong enough to satisfy Nken’s first
requirement[.]” App. 60a-61a. The panel reiterated
that it found “serious” the argument that, if Mr. Purkey
cannot press his claims in a § 2241 petition, “he could
literally go to his death without ever having the opportunity first to demonstrate that his Sixth Amendment
rights were violated, and second, if he succeeds, to have
a new trial untainted by that failing,” explaining that
“all defendants, including capital defendants, have a
right to constitutionally effective counsel” and “[t]he
information proffered in Purkey’s section 2241 petition
gives us concern that Purkey never received such
counsel.” App. 58a-59a.
With this in mind, the panel stated again that a
“brief stay is necessary to complete our proceedings in
an orderly way,” including the resolution of a forthcoming petition for panel or en banc rehearing from Mr.

11
Purkey. App. 59a. Although the stay “would expire at
the earliest … on Monday, August 24” (which the panel
recognized is “a few weeks after July 15, the government’s desired execution date”), the panel noted that
the Government had neither provided a “reason why
we should fore-shorten the time” for proceedings to
conclude in the Seventh Circuit, nor established “that it
would experience difficulty in re‐scheduling Purkey’s
execution date for a time after our court has completed
its review.” Id.
REASONS FOR GRANTING THE PETITION
I.

THE CIRCUITS ARE DIVIDED ON WHETHER AND BY
WHAT PROCEDURAL MECHANISM FEDERAL PRISONERS
WHOSE SUBSTANTIAL CLAIMS OF INEFFECTIVE ASSISTANCE OF TRIAL COUNSEL WERE DEFAULTED BY INEFFECTIVE § 2255 COUNSEL MAY SEEK REVIEW

In Coleman v. Thompson, 501 U.S. 722 (1991), this
Court held that an attorney’s negligence does not constitute cause to excuse procedural default in state postconviction proceedings. In Martinez v. Ryan, 566 U.S.
1 (2012), however, this Court recognized an equitable
exception to that holding: The Court held that where,
by virtue of the structure of a State’s procedural
framework, “claims of ineffective assistance of trial
counsel must be raised in an initial-review collateral
proceeding, a procedural default will not bar a federal
habeas court from hearing a substantial claim of ineffective assistance at trial if, in the initial-review collateral proceeding, there was no counsel or counsel in that
proceeding was ineffective.” Id. at 17. The Court recognized that because many state-court systems “move
trial-ineffectiveness claims outside of the direct-appeal
process, where counsel is constitutionally guaranteed,
the State significantly diminishes prisoners’ ability to

12
file such claims” and that a defendant’s constitutional
right to counsel—a “bedrock principle in our justice
system”—will be difficult, if not impossible, to vindicate
“[w]ithout the help of an adequate attorney.” Id. at 1113. But the Court limited its holding to state jurisdictions where ineffective assistance claims are required
to be raised during initial collateral proceedings rather
than on direct appeal.
The following year, the Court granted certiorari in
Trevino v. Thaler, 569 U.S. 413 (2013), to clarify whether Martinez’s holding applied equally in jurisdictions
where ineffective assistance of trial counsel claims were
not prohibited outright during direct appeal proceedings, but where the state-court procedures made it
“‘virtually impossible for appellate counsel to adequately present an ineffective assistance of trial counsel
claim’ on direct review.” Id. at 423 (citations and
brackets omitted). The Court held that it did. See id.
at 428-429 (clarifying that Martinez also applies where
the State’s “procedural framework … makes it highly
unlikely in a typical case that a defendant will have a
meaningful opportunity to raise” a substantial claim of
ineffective assistance of trial counsel on direct appeal).
As in Martinez, in Trevino the Court focused on the
centrality of the effective assistance of trial counsel to
our criminal justice system and, correspondingly, the
importance of permitting prisoners a meaningful opportunity to develop and present substantial claims of ineffective assistance of trial counsel. See id. at 422-423; see
also Davila v. Davis, 137 S. Ct. 2058, 2066 (2017)
(“[T]he Court in Martinez was principally concerned
about trial errors—in particular, claims of ineffective
assistance of trial counsel.”).
Martinez and Trevino by their terms considered
only ineffective assistance of trial counsel claims by

13
state prisoners. This Court has never addressed their
applicability to federal prisoners or, assuming they do
apply, what procedural mechanisms are available to
federal prisoners to vindicate the principles those decisions articulate. In the absence of guidance from the
Court, the courts of appeals have reached divergent answers to this important question.
The Seventh Circuit in this case held that federal
prisoners whose substantial claims of ineffective assistance of trial counsel were never reviewed by any court
due to the ineffective assistance of § 2255 counsel may
not resort to § 2241 to press those claims. As explained, the Seventh Circuit here held that, to benefit
from the Savings Clause in § 2255(e), “there must be a
compelling showing that, as a practical matter, it would
be impossible to use section 2255 to cure a fundamental
problem” and that ineffective assistance of § 2255 counsel does not create such an impossibility. App. 20a
(emphasis added). The court reached that conclusion
notwithstanding its recognition that “Martinez and
Trevino can be read to say that a person can overcome
a procedural bar to bringing a claim of ineffective assistance of trial counsel in a federal court, if counsel in
postconviction proceedings was him- or herself ineffective.” App. 25a.5
5

In unpublished decisions, the Sixth and Third Circuits have
held that Martinez and Trevino are inapplicable to federal prisoners trying use § 2241 to bring ineffective assistance of trial counsel
claims. See Order 3, Abdur-Rahiim v. Holland, No. 15-5297, ECF
No. 13-2 (6th Cir. Jan. 12, 2016) (refusing to apply Martinez and
Trevino to a federal prisoner on the ground that those cases
“deal[t] solely with the procedural default of ineffective-assistanceof-counsel claims in state habeas corpus proceedings” and “they
have no bearing whatever on the § 2255(e) savings clause”); Jack-

14
However, in Ramirez v. United States, 799 F.3d
845 (7th Cir. 2015), the Seventh Circuit held that a federal prisoner who receives ineffective assistance of initial-review collateral counsel may use Federal Rule of
Civil Procedure 60(b) to reopen his § 2255 proceedings
to press substantial claims of ineffective assistance of
trial counsel. The court explained:
Because the federal courts have no established
procedure … to develop ineffective assistance
claims for direct appeal, the situation of a federal petitioner is the same as the one the Court
described in Trevino: as a practical matter, the
first opportunity to present a claim of ineffective assistance of trial or direct appellate counsel is almost always on collateral review, in a
motion under section 2255.
Id. at 853; see also id. at 854 (“[I]n the great majority of
federal cases, ineffectiveness claims must await the
first round of collateral review.”). The court found
there was “no reason to distinguish between actions at
the state level that result in procedural default and the
consequent loss of a chance for federal review, and actions at the federal level that similarly lead to a procedural default that forfeits appellate review” and thus
the holdings of Martinez and Trevino “‘apply to all collateral litigation under 28 U.S.C. § 2254 or § 2255.’” Id.
at 852, 854.
man v. Shartle, 535 F. App’x 87, 89 n.5 (3d Cir. 2013) (per curiam)
(“Trevino and Martinez deal with state prisoners’ ability to bring
ineffective assistance of counsel claims, despite being procedurally
barred. They do not address the ability of federal prisoners to use
§ 2241 to bring ineffective assistance of counsel claims.”); see also
United States v. Sheppard, 742 F. App’x 599, 601 (3d Cir. 2018)
(per curiam).

15
By contrast, in United States v. Lee, 792 F.3d 1021
(8th Cir. 2015), the Eighth Circuit refused to permit a
federal prisoner resort to Rule 60(b) under analogous
circumstances. There, a federal capital prisoner filed
an initial § 2255 petition asserting that his trial counsel
was ineffective. His court-appointed § 2255 counsel,
however, failed to present available evidence to support his claim, and his petition was dismissed for lacking evidentiary support. Lee filed a pro se motion under Rule 60(b), arguing that under Martinez and Trevino, he was entitled to one opportunity to present his
substantial claim of ineffective assistance of trial counsel, but had been denied it by ineffective assistance of
§ 2255 counsel. The district court treated Lee’s Rule
60(b) motion as a second or successive habeas petition
and dismissed it. The Eighth Circuit affirmed, holding
that Martinez and Trevino were “inapposite” to Lee, a
federal prisoner, because those cases “involved federal
habeas review of state court decisions under § 2254.”
Id. at 1024.
II. THE SEVENTH CIRCUIT’S DECISION CONFLICTS WITH
MARTINEZ AND TREVINO
The Seventh Circuit’s decision contravenes this
Court’s decisions in Martinez and Trevino. Prisoners—
and in particular, those facing a sentence of death—
must have at least one reasonable opportunity to challenge the effectiveness of their trial counsel. Where a
prisoner must wait until initial-review collateral proceedings to pursue an ineffective assistance of trial
counsel claim that has “some merit,” and where counsel
at those initial-review proceedings is absent or ineffective, the constitutional right to effective assistance of
trial counsel—“a bedrock principle in our justice system”—will be difficult, if not impossible, to vindicate.

16
Martinez, 566 U.S. at 12-14; see also Trevino, 569 U.S.
at 428-429. That is the central premise of this Court’s
decisions in Martinez and Trevino.
A federal prisoner with substantial claims of ineffective assistance of trial counsel, who lacked effective
assistance of initial-review collateral counsel, is in the
exact same position as the state prisoners in Martinez
and Trevino. In the normal course, a federal prisoner
first files a direct appeal, where he is entitled to counsel. See Fed. R. Crim. P. 44(a); Vinyard v. United
States, 804 F.3d 1218, 1224-1225 (7th Cir. 2015). But
the timing for direct appeals required under the federal
rules precludes bringing adequately developed claims
of ineffective assistance of trial counsel. Indeed, the
federal courts of appeals have actively discouraged federal prisoners from bringing those claims on direct appeal. See Ramirez, 799 F.3d at 853 (“Raising ineffective assistance on direct appeal is imprudent … unless
the contention is made first in the district court and a
full record is developed.”).
A motion pursuant to § 2255 thus provides the federal prisoner’s first real opportunity to raise claims of
ineffective assistance of trial counsel. See Massaro v.
United States, 538 U.S. 500, 508 (2003). But where that
proceeding is “undertaken … with ineffective counsel,”
the collateral review proceeding “may not [be] sufficient to ensure that proper consideration was given to a
substantial claim” of ineffective assistance of trial counsel. Martinez, 566 U.S. at 14. That is because, as this
Court recognized in Martinez, ineffective assistance of
trial counsel claims are difficult if not impossible to
mount “[w]ithout the help of an adequate attorney.” Id.
at 11-13. Yet, under the constraints of § 2255, that is
the only chance a federal prisoner—even one sentenced

17
to death—will get to present substantial claims of ineffective assistance of trial counsel.
In the Antiterrorism and Effective Death Penalty
Act of 1996, Congress restricted the availability of
“second or successive” habeas petitions under § 2255 to
situations where the movant can point to either “newly
discovered evidence” that would undermine his conviction, or a new, retroactive “rule of constitutional law …
that was previously unavailable.” 28 U.S.C. § 2255(h).
But, in doing so, Congress did not alter the Savings
Clause of § 2255(e)—an implicit acknowledgment that
§ 2241 would be available in some cases other than the
two narrow circumstances identified in § 2255(h).
For a federal prisoner—and in particular, for a federal capital prisoner—whose substantial claim of ineffective assistance of trial counsel was not presented in
his § 2255 petition due to the ineffective assistance of
§ 2255 counsel, § 2241 must be available. Under those
circumstances, because § 2255 counsel was ineffective,
the prisoner is denied “an opportunity to bring his argument,” and thus the “‘remedy by motion’” under
§ 2255 is “‘inadequate or ineffective’” to test the legality
of his detention. Prost v. Anderson, 636 F.3d 578, 584585 (10th Cir. 2011) (Gorsuch, J.). This is not to say
that because the prisoner was denied relief, § 2255 is
inadequate or ineffective. Rather, it is the denial even
of an opportunity to present substantial claims of ineffective assistance of trial counsel that renders the remedy inadequate or ineffective to test the legality of the
conviction and sentence. See id. Indeed, under those
circumstances (as here), no court will ever review the
prisoner’s substantial claims of ineffective assistance of
trial counsel before he is put to death. For that reason,
the Seventh Circuit’s conclusion that to benefit from
the Savings Clause in § 2255(e), “there must be a com-

18
pelling showing that, as a practical matter, it would be
impossible to use section 2255 to cure a fundamental
problem”—and that ineffective assistance of § 2255
counsel does not create such an impossibility—is incorrect. App. 20a (emphasis added). Where a federal capital prisoner has ineffective § 2255 counsel, raising substantial claims of ineffective assistance of trial counsel
is—for all practical purposes—impossible. Accordingly,
the principles this Court articulated in Martinez and
Trevino require that such prisoners be given the opportunity to raise such claims in a petition under § 2241.
III. THE QUESTION PRESENTED IS IMPORTANT AND MERITS THIS COURT’S IMMEDIATE REVIEW
The effective result of the circuits’ disparate approaches is that federal capital prisoners in some jurisdictions who receive ineffective assistance of § 2255
counsel have no reasonable opportunity at all to present substantial claims of ineffective assistance of trial
counsel. Whether and by what procedural mechanism
such prisoners can press their ineffective assistance of
trial counsel claims is important and worthy of this
Court’s review, for at least four reasons: (1) the importance of the right at stake; (2) the creation of an unwarranted disparity between state and federal prisoners; (3) this issue is likely to recur; and (4) the issue is
not likely to percolate further. See S. Ct. R. 10(c).
1. The right to effective assistance of trial counsel
is the “bedrock” of our criminal justice system. Martinez, 566 U.S. at 12; see also Davila, 137 S. Ct. at 20662067. Without effective assistance of trial counsel, no
defendant can receive a fair trial. See generally Gideon
v. Wainwright, 372 U. S. 335, 344 (1963) (characterizing
as an “obvious truth” that “any person haled into court,
who is too poor to hire a lawyer, cannot be assured a

19
fair trial unless counsel is provided for him”); see also
Martinez, 566 U.S. at 12 (“[T]he right to counsel is the
foundation for our adversary system. Defense counsel
tests the prosecution’s case to ensure that the proceedings serve the function of adjudicating guilt or innocence, while protecting the rights of the person
charged.”). The necessity that a defendant receive effective assistance of trial counsel—while present in
every criminal prosecution—is of heightened importance in a capital case, where the defendant’s very
life is at stake and defense counsel must be attuned to
issues not present in non-capital cases.
Equally true is the proposition “the initial-review
collateral proceeding, if undertaken … with ineffective
counsel, may not [be] sufficient to ensure … proper
consideration [of] a substantial claim” of ineffective assistance of trial counsel. Martinez, 566 U.S. at 14. That
is because “[c]laims of ineffective assistance at trial often require investigative work and an understanding of
trial strategy.” Id. at 11. Accordingly, as this Court
has recognized, “[t]o present a claim of ineffective assistance at trial …, a prisoner likely needs an effective
attorney.” Id. at 12. Again, the need for effective assistance of collateral counsel to ensure the presentation
of ineffective assistance of trial counsel claims is particularly acute in capital cases, given the immense stakes.
Congress recognized as much in ensuring that capital
defendants (unlike most federal prisoners) would have
the right to counsel not only through trial and direct
appeal, but also in post-conviction proceedings. 18
U.S.C. § 3599; see Martel v. Clair, 565 U.S. 648, 658-660
(2012).
Accordingly, where, as here, counsel in § 2255 proceedings is ineffective in failing to investigate and develop substantial claims of ineffective assistance of trial

20
counsel, those claims will never be reviewed by any
court. It was this very concern that motivated this
Court in Martinez and Trevino to create an equitable
exception to Coleman for state prisoners. Such a rule
will result in federal capital defendants being executed
without ever having a meaningful opportunity to test
the legality of their conviction and sentence, when that
conviction and sentence was tainted by the ineffective
assistance of trial counsel.
2. Federal capital prisoners who have been denied
effective assistance of § 2255 counsel are in the exact
same position as the state prisoners who benefit from
Martinez and Trevino, as § 2255 proceedings are federal
prisoners’ first opportunity to raise ineffective assistance of trial counsel claims. See Massaro, 538 U.S. at
508. Denying resort to § 2241 under analogous circumstances, then, creates an unjustified distinction between
state and federal prisoners that uniquely disfavors the
latter. Such a distinction is particularly unjustified given that Congress provided with respect to state prisoners that “[t]he ineffectiveness or incompetence of counsel during Federal or State collateral post-conviction
proceedings shall not be a ground for relief in a proceeding arising under section 2254,” 28 U.S.C. § 2254(i), but
did not include any such limitation in § 2255 for federal
prisoners. And, unlike federal habeas review of state
prisoners’ defaulted claims, permitting federal prisoners
to raise in a § 2241 petition substantial ineffective assistance of trial counsel claims defaulted by ineffective §
2255 counsel presents no comity concerns.
Moreover, as the Court has repeatedly emphasized,
there is a constitutional imperative for a reliable determination of guilt in capital cases. See, e.g., Spaziano
v. Florida, 468 U.S. 447, 456 (1984) (“We reaffirm our
commitment to the demands of reliability in decisions

21
involving death[.]”); Beck v. Alabama, 447 U.S. 625, 638
(1980) (“To insure that the death penalty is indeed imposed on the basis of ‘reason, rather than caprice or
emotion,’ we have invalidated procedural rules that
tended to diminish the reliability of the sentencing determination. The same reasoning must apply to rules
that diminish the reliability of the guilt determination.”
(footnote omitted)). For that reason, the rationale for
Martinez and Trevino—that a fair trial requires effective assistance of trial counsel, and that the integrity of
our system of justice requires that meaningful review
of substantial claims of ineffective assistance of trial
counsel—is manifestly present here.
3. This issue is important, given that the federal
government has—for the first time in nearly two decades—begun scheduling executions. Currently, four
prisoners (including Mr. Purkey) are scheduled for execution, but there are nearly 60 prisoners on federal
death row, some of whom face the possibility of execution despite their having substantial claims of ineffective assistance of trial counsel that have never been reviewed by any court.6 Accordingly, the question of
whether federal capital defendants with substantial
claims of ineffective assistance of trial counsel, who received ineffective assistance of § 2255 counsel, can
press such claims in petitions brought under § 2241, is
bound to recur. The lower courts would benefit from
this Court’s guidance on that question.
4. Lastly, even though the question is likely to recur, a circuit split is not likely to develop on this question. That is because of the approximately 60 federal
6

See Death Penalty Information Center, Federal Death Penalty, https://bit.ly/2CaugVI (visited July 15, 2020).

22
death row prisoners, nearly all of them are incarcerated
at the U.S. Penitentiary in Terre Haute, Indiana.7 A
small handful of federal death row prisoners are currently incarcerated at the U.S. Penitentiary in Florence, Colorado, but each will be transferred to Terre
Haute once an execution date is set.8 Because § 2241
petitions must be filed in the district where the prisoner is incarcerated, nearly all claims of this type must be
brought in the U.S. District Court for the Southern
District of Indiana (the district in which Terre Haute
sits), where the Seventh Circuit’s decision will bar consideration.
IV. THIS CASE IS AN IDEAL VEHICLE
This case is a good vehicle to resolve the important
question presented by this petition because Mr. Purkey
has substantial claims of ineffective assistance of trial
counsel that have never been reviewed by any court—
challenges so “serious” that a panel of the Seventh Circuit issued a stay of his execution on the ground that
those claims “are worthy of further exploration.” App.
25a-26a.
As explained, Mr. Purkey was convicted and sentenced to die by a juror who was presumed biased as a
matter of law—who had suffered a similar assault as
the victim of Mr. Purkey’s alleged crime, at the same
age, and even shared the same name. Juror 13 disclosed all of this on her juror questionnaire, but trial
counsel failed to object to the seating of this juror, or
7
8

See id.

Trigg, Federal Execution Decision Hardly Shocks ISU
Crime, Policy Expert, Tribune Star (July 25, 2019), https://bit.ly/
308HOcK.

23
even to inquire of her further. The seating of Juror 13
was a fundamental structural defect that deprived
Mr. Purkey of his constitutional right to a trial by an
impartial tribunal. Trial counsel also failed to present
an adequate mitigation case, meaning that the jury was
not in possession of important facts about Mr. Purkey’s
history of trauma and mental health; had the jury been
in possession of that information, there is a reasonable
probability that it would have changed the jury’s sentencing recommendation.
Mr. Purkey’s § 2255 counsel managed to raise none
of these issues and for that reason Mr. Purkey’s substantial claims of ineffective assistance of trial counsel
have never been considered by any court. This petition
is the perfect vehicle for clarifying that, under these
circumstances, § 2255 is “inadequate or ineffective” to
test a capital prisoner’s conviction and sentence.
CONCLUSION
The petition for a writ of certiorari should be
granted.

24
Respectfully submitted.
REBECCA E. WOODMAN
ATTORNEY AT LAW, L.C.
1263 W. 72nd Terrace
Kansas City, MO 64114
(785) 979-3672
MICHELLE M. LAW
ASSISTANT FEDERAL
PUBLIC DEFENDER,
WESTERN DISTRICT OF
MISSOURI
901 St. Louis Street
Suite 801
Springfield, MO 65806
(417) 873-9022

JULY 2020

ALAN E. SCHOENFELD
Counsel of Record
STEPHANIE SIMON
RYAN CHABOT
JULIA C. PILCER
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
alan.schoenfeld@wilmerhale.com

APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 19-3318
WESLEY IRA PURKEY
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA, et al.,
Respondents-Appellees.
Argued June 16, 2020
Decided July 2, 2020
Appeal from the United States District Court for the
Southern District of Indiana, Terre Haute Division.
No. 2:19-cv-00414-JPH-DLP – James P. Hanlon, Judge.
OPINION
Before WOOD, Chief Judge, and BRENNAN and ST. EVE,
Circuit Judges.
WOOD, Chief Judge. Accuracy and finality are both
central goals of the judicial system, but there is an inherent conflict between them. Suppose later information comes to light in a criminal case, and that information reveals potential factual or constitutional errors
in the original proceeding. Do we privilege accuracy
and re–open the case, or do we privilege finality and
leave the errors unexamined? And if we do permit a
second look, is a third or fourth also proper? The case

2a
before us presents just such a question, and the stakes
could not be higher. We must decide whether Wesley
Purkey, who sits on federal death row at the U.S. Penitentiary in Terre Haute, Indiana, has run out of opportunities to challenge his conviction and death sentence
for kidnapping and murder. Purkey urges that his proceedings up to now have been undermined by ineffective assistance of counsel, first at the trial level, and
then on collateral review. The United States argues
that Purkey already has had an opportunity to challenge the effectiveness of trial counsel and, under the
governing statutes, he has come to the end of the line.
The district court ruled for the government. We conclude that this is not one of those rare cases in which
the defendant is entitled to another day in court, and so
we affirm the district court’s judgment.
I
We can be brief about the underlying facts, since we
are concerned almost exclusively about procedure in this
appeal. On January 22, 1998, Purkey (then 46 years old)
saw Jennifer Long at a grocery store in Kansas City,
Missouri. He asked her if she wanted to party with him.
She accepted the invitation and got into Purkey’s pickup
truck. At the time, Long was 16 years old; she commented to Purkey that she had been at her high school
but had left after an argument with some friends.
Matters almost immediately took a bad turn:
Purkey told Long that he needed to stop off briefly at
his house in nearby Lansing, Kansas, but Long objected. Purkey then threatened her by removing a boning
knife from the glove box and placing it under his thigh,
while telling her that he would not let her out of the
truck. He drove her across the state line to his home,

3a
where he raped her, stabbed her repeatedly with the
boning knife, and ultimately killed her.
In order to conceal the murder, Purkey stored Long’s
body in a toolbox for a few days; he later dismembered it
and burned the pieces in his fireplace. What he could not
destroy, he dumped into a septic lagoon.
That was not Purkey’s only murder during 1998. In
October, he killed 80–year–old Mary Ruth Bales using
only the claw end of a hammer. This took place in Kansas, where he was quickly caught and placed in custody.
In December 1998, while awaiting trial in the Bales
case, Purkey sent a letter to Detective Bill Howard of
the Kansas City, Kansas, police department, stating
that he wanted to talk about a kidnapping and homicide
that had occurred earlier that year. Purkey also insisted that an FBI agent come along. His reason was this:
he realized that he faced a life sentence in Kansas for
the Bales murder, but he thought that if he were convicted on federal charges, he would also receive a life
sentence, but he could serve it in a federal facility. It
apparently did not occur to him that the death penalty
is possible for certain federal crimes.
Purkey had several conversations with Detective
Howard and FBI Special Agent Dick Tarpley. In each
of them, he said that he planned to plead guilty in the
Bales case. He also expressed a willingness to confess
to another murder in exchange for a life sentence in
federal prison. Howard and Tarpley promised to inform the U.S. Attorney in Kansas of Purkey’s offer, but
they made no other commitment. Purkey then confessed that nine months earlier, he had kidnapped a
young woman named Jennifer in Kansas City, Missouri,
transported her to his home, and had raped, killed, dismembered, and disposed of her. Howard and Tarpley

4a
passed this information along to the U.S. Attorney, who
indicated that if Purkey cooperated further, he might
be willing to prosecute the case.
Purkey did cooperate, by taking Howard and
Tarpley to the crime scene, showing them the septic
pond where he had deposited the remains, giving
handwritten and oral confessions, and identifying
Long’s photograph from a lineup. Purkey was under
the impression that he was negotiating for a life sentence, but Howard and Tarpley denied that any such
deal was on the table. And indeed, on October 10, 2001,
after Purkey pleaded guilty in Kansas court to the
Bales murder, a grand jury in the Western District of
Missouri indicted him for the kidnapping, rape, and
murder of Long, in violation of 18 U.S.C. §§ 1201(a),
1201(g), and 3559(d). The U.S. Attorney filed a notice
that the government planned to seek the death penalty.
See 18 U.S.C. § 3593(a).
II
A
At the trial, Purkey was represented by Attorneys
Frederick Duchardt, Jr. (principal counsel) and Laura
O’Sullivan. Because Purkey had repeatedly confessed
that he kidnapped Long (four times, by the government’s count), his defense depended on the jury’s accepting his contention that he had lied when he said
that he took her by force, and that the truth was instead that he thought she was a prostitute who willingly accompanied him from Missouri to Kansas. He testified that he had fabricated the claim of force because he
wanted to be prosecuted in federal court. The government responded with certain statements from Purkey’s
suppression hearing, at which he admitted that he took
Long across state lines against her will, to impeach his

5a
trial testimony. Purkey’s lawyers made no effort to exclude this evidence, which he now says was ultimately
used not just for impeachment, but (impermissibly) to
prove the truth about coercion. The jury was not persuaded by Purkey’s account; on November 5, 2003, it
returned a verdict of guilty.
The penalty phase of the trial began shortly thereafter, on November 10, 2003. Purkey’s lawyers submitted
evidence on 27 mitigating factors, though as we will see,
current counsel believe that their work fell short of the
constitutional minimum. Experts testified that Purkey
both had organic brain damage, principally stemming
from severe injuries suffered in car accidents, and that
his mental capacity was diminished. The government
offered evidence in opposition to the alleged mitigating
factors, and it also introduced evidence of six statutory
and four non–statutory aggravating factors. See 18
U.S.C. § 3592(c) (listing 16 statutory aggravating factors
and permitting consideration of any other aggravating
factor for which the defendant received notice). The jury found that the government had proven the existence
of all six statutory factors. See 18 U.S.C. §§ 3592(c)(1),
(2), (3), (4), (6), and (11). It also found three of the four
non–statutory factors: loss because of personal characteristics and impact on the family; previous vicious killing of Bales; and substantial criminal history.
The penalty question was submitted to the jury on
November 19, 2003; it returned a death sentence on the
same day. Although the verdict form included space
for findings on mitigating factors, the jury left that section blank. When the jury announced its verdict, defense counsel initially objected to this omission and the
court offered to send the jury back for further deliberations. But the government objected, and defense counsel dropped the point without further comment. The

6a
court thus never resolved the question whether the
blank form meant that the jury neglected to address
the question of mitigation, or if it meant that it thought
about the subject and concluded that there was nothing
to report. The court formally imposed a sentence of
death and entered its judgment on January 23, 2004.
Purkey appealed to the Eighth Circuit, which affirmed the conviction and sentence. United States v.
Purkey, 428 F.3d 738 (8th Cir. 2005) (Purkey I). The
Supreme Court denied Purkey’s petition for a writ of
certiorari. Purkey v. United States, 549 U.S. 975
(2006). Purkey then filed a motion for postconviction
relief under 28 U.S.C. § 2255.
B
Purkey raised two primary claims in his section
2255 proceedings: (1) ineffective assistance of trial
counsel in 17 different particulars, in violation of his
Sixth Amendment rights; and (2) several alleged violations of his due process rights during the trial (namely,
government misconduct during the trial, insufficient
evidence to find kidnapping beyond a reasonable doubt,
and error in the jury’s failure to address the question of
mitigating evidence). He urged the district court to
give him an evidentiary hearing on the ineffectiveness–
of–counsel claim. In order to respond to that charge,
the government submitted a 117-page affidavit from
attorney Duchardt, in which Duchardt defended his
work.1 Purkey asserted that the court could not take
1

The district court ordered the preparation of that affidavit
in response to a motion from the government. See Purkey v.
United States, No. 06-8001-CV-W-FJG, 2008 WL 11429383 at *2
(W.D. Mo. Feb. 1, 2008). In the same order, the court denied
Purkey’s counsel’s motion to compel the Federal Bureau of Prisons
(BOP) to provide Purkey with necessary psychiatric treatment, it

7a
Duchardt’s word on these points, and worse, that Duchardt had misrepresented certain things and had violated his duty of confidentiality to Purkey. The district
court decided, however, that Purkey had failed to overcome the presumption that Duchardt’s actions reflected
trial strategy. It therefore denied relief under section
2255. Purkey v. United States, No. 06-8001-CV-WFJG, 2009 WL 3160774 (W.D. Mo. Sept. 29, 2009)
(Purkey II).
Through counsel, Purkey moved to alter or amend
the court’s rejection of his section 2255 motion; at the
same time, he filed a pro se motion “to Withdraw Habeas Proceedings and Set an Expeditious Execution
Date.” Purkey v. United States, No. 06-8001-CV-WFJG, 2009 WL 5176598 (W.D. Mo. Dec. 22, 2009)
(Purkey III). The district court denied the motion insofar as it sought reconsideration of the denial of relief
under section 2255, and it permitted Purkey to withdraw the pro se motion seeking the abandonment of his
section 2255 request and an early execution date.
Nearly a year later, the court issued a lengthy opinion
in which it denied Purkey’s request for a certificate of
appealability. Purkey v. United States, No. 06-8001CV-W-FJG, 2010 WL 4386532 (W.D. Mo. Oct. 28, 2010)
(Purkey IV).
Turning to the Eighth Circuit, Purkey was successful in obtaining a certificate of appealability “to review
whether Purkey received effective assistance of counsel during the penalty phase of the trial and whether
the district court abused its discretion by denying relief
without conducting an evidentiary hearing.” Purkey v.
denied Purkey’s pro se motion seeking leave to dismiss counsel
and proceed pro se, and it gave the government an extension of
time in which to respond to the motion under section 2255.

8a
United States, 729 F.3d 860, 861 (8th Cir. 2013) (Purkey
V). The certificate permitted “Purkey to challenge
three aspects of Duchardt’s performance in this proceeding: (1) his alleged failure to adequately prepare
and present the testimony of three expert witnesses,
(2) his alleged failure to adequately investigate and
prepare two mitigating witnesses, which resulted in
their testimony being more prejudicial than beneficial,
and (3) his alleged failure to adequately investigate and
present other mitigating evidence.” Id. at 862.
The Eighth Circuit found that Duchardt had presented “a lengthy and detailed mitigation case” during
the penalty phase. Id. at 863. Over two days, he offered testimony from 18 witnesses—family members,
inmates, and religious counselors—all of whom stated
that Purkey’s parents had inflicted significant physical
and emotional abuse on him. Both were alcoholics, his
mother (and many others) humiliated him because he
was a stutterer, and his mother sexually abused both
him and his brother in the most graphic ways imaginable. Purkey’s medical and mental health records were
introduced; they showed that Purkey had a serious personality disorder and a below-average IQ. Although
section 2255 counsel had more to offer, the Eighth Circuit found that the new material was “entirely cumulative.” Id. at 865. Moreover, the court added, to the extent the proffered information did not cover the same
ground as the penalty phase evidence, it could not conclude that there was a reasonable probability that the
new evidence would have changed the result, given the
particularly gruesome nature of the crime. Id. at 866.
Finally, it saw no abuse of discretion in the district
court’s decision not to hold an evidentiary hearing.
Purkey sought certiorari from this decision, but the
Supreme Court denied review. 574 U.S. 933 (2014).

9a
C
That set the stage for the current proceedings—
and we mean to use the plural, because there are three
moving pieces, although we are involved in only one of
them. As are all federal prisoners under a sentence of
death, Purkey is housed in the U.S. Penitentiary in
Terre Haute, Indiana. For many years—to be exact,
since March 18, 2003, when Louis Jones, Jr. was executed—the federal government has not carried out any
executions. But policy changed in the current Administration, which is moving quickly to resume executions. On July 25, 2019, the government issued a notice
scheduling Purkey’s execution for December 13, 2019.
Losing no time, on August 27, 2019, Purkey filed a detailed petition under 28 U.S.C. § 2241 in the Southern
District of Indiana challenging the constitutionality of
his conviction and death sentence. We refer to this as
the “Habeas Corpus” case; it is the one presently before us. Second, on October 21, 2019, Purkey filed a
complaint in the District of Columbia challenging the
execution protocol that the Bureau of Prisons (BOP)
proposes to use. We refer to this as the “Execution
Protocol” case. Finally, on November 11, 2019, Purkey
filed another complaint in the District of Columbia, asserting that he was entitled to relief from the death
penalty under the Supreme Court’s ruling in Ford v.
Wainwright, 477 U.S. 399 (1985). We refer to this as
the Ford claim.
1
Before turning to the Habeas Corpus case, we say a
word about the Execution Protocol litigation and the
Ford claim. The impetus for the Execution Protocol
litigation came from the fact that the Federal Death
Penalty Act of 1994 (FDPA) calls for federal executions

10a
to be done “in the manner prescribed by the law of the
State in which the sentence is imposed.” 18 U.S.C.
§ 3596(a). At the time the Department of Justice announced that it had scheduled Purkey’s execution for
December 13, 2019, there was a consolidated action
pending in the district court for the District of Columbia. In that case numerous death–row inmates (some of
whom also had fixed execution dates) challenged the
execution protocol that BOP planned to use for them.
The Protocol, adopted in 2019, calls for BOP to use a
single drug, pentobarbital, to carry out executions. See
Matter of Federal Bureau of Prisons’ Execution Protocol Cases, Nos. 19-mc-145 (TSC) et al., 2019 WL
6691814 (D.D.C. Nov. 20, 2019).
The details of this litigation need not detain us.
What is important is that the D.C. district court preliminarily enjoined the Department of Justice from moving
ahead under the 2019 Protocol, noting among other
things that it had taken DOJ eight years to come up
with the Protocol, that the defendants had a strong interest in litigating the legality of their executions, and
that a minor additional delay would not irreparably injure the government. The initial dates thus came and
went with no executions. The government promptly
appealed, however, and a divided panel of the Court of
Appeals for the District of Columbia Circuit vacated
the injunction and remanded the case to the district
court. See In re Federal Bureau of Prisons’ Execution
Protocol Cases, 955 F.3d 106 (D.C. Cir. 2020). The majority held that the FDPA does not compel the DOJ to
follow every last detail of the relevant state’s execution
procedures, and that the Department did not violate
the Administrative Procedure Act, because this matter
is exempt from notice–and–comment rulemaking. The
inmates immediately filed a petition for a writ of certio-

11a
rari, which was docketed as No. 19-1348 under the
name Bourgeois v. Barr. On June 29, the Supreme
Court denied the petition along with an application for
a stay. We have no role in the Execution Protocol litigation.
2
Purkey’s Ford claim is, by definition, an individual
one. In it, he asserts that he is now afflicted with dementia (Alzheimer’s type) and schizophrenia, and that
these conditions have worsened over the time he has
been in prison, to the point that he no longer appreciates why he faces execution. The government contests
these assertions. Ford holds that the Eighth Amendment bars the execution of a person who, as of the
planned time for death, is “insane.” See 477 U.S. at 410
(plurality opinion of Marshall, J.), 421-22 (Powell, J.,
concurring in the judgment). See also Panetti v. Quarterman, 551 U.S. 930 (2007) (confirming Ford holding
and holding that a Ford claim is not ripe until execution
is imminent). On February 24, 2020, the government
filed a motion to dismiss the Ford claim, or in the alternative to transfer it from the District of Columbia
(where Purkey filed it) to the Southern District of Indiana. Purkey filed his motion in opposition on March 16,
and the government responded on March 20. To date,
the district court has not yet ruled on the motion.
In the midst of all this, the Department of Justice
issued a statement on June 15 resetting Purkey’s execution date for July 15, 2020. Purkey responded with a
motion filed on June 22 for a preliminary injunction
barring the execution. The government’s response to
that motion was due on June 29, and Purkey’s reply is
due on July 2. We have no current role in the Ford litigation.

12a
3
That brings us to the case before us, which Purkey
brought under the basic habeas corpus statute, 28
U.S.C. § 2241. We held oral argument in this case on
June 16, a date that had long been scheduled as of the
time the government issued the new execution schedule on June 15. The most important question we must
answer is whether Purkey is entitled to use section
2241. Only if the answer is yes may we reach the merits of the claims he wishes to bring.
In the great majority of cases, the exclusive postconviction remedy for a federal prisoner is the one
Purkey already has invoked: a motion under 28 U.S.C.
§ 2255. Strict procedures govern the way such a motion
must be presented. First, there is a one–year statute of
limitations, which runs from one of four dates specified
in the statute. See 28 U.S.C. § 2255(f). The only relevant date in Purkey’s case is the first: “the date on
which the judgment of conviction becomes final.”
Purkey met that deadline; his section 2255 motion was
the subject of the district court’s decisions in Purkey II
through IV and the Eighth Circuit’s ruling in Purkey
V. Second, a federal prisoner is limited to one motion
under section 2255 unless he receives permission to file
a second or successive motion from the appropriate
court of appeals. See 28 U.S.C. § 2255(h). The criteria
for authorization are draconian: they are met only if
there is compelling newly discovered evidence of innocence or “a new rule of constitutional law, made retroactive to cases on collateral review by the Supreme
Court.” Id. Purkey concedes that he cannot satisfy either of these criteria.
Finally, the statute recognizes a narrow pathway to
the general habeas corpus statute, section 2241, in the

13a
provision that has come to be called the “safety valve.”
Here is what it says:
An application for a writ of habeas corpus
in behalf of a prisoner who is authorized to apply for relief by motion pursuant to this section,
shall not be entertained if it appears that the
applicant has failed to apply for relief, by motion, to the court which sentenced him, or that
such court has denied him relief, unless it also
appears that the remedy by motion is inadequate or ineffective to test the legality of his detention.
28 U.S.C. § 2255(e) (emphasis added). We thus turn to
the question whether Purkey’s case fits within the narrow confines of the safety valve.
III
This court has had a number of opportunities to
consider the safety valve, but three cases are central:
In re Davenport, 147 F.3d 605 (7th Cir. 1998); Garza v.
Lappin, 253 F.3d 918 (7th Cir. 2001); and Webster v.
Daniels, 784 F.3d 1123 (7th Cir. 2015) (en banc). The
district court, regarding these three as defining the limits of the safety valve, examined each of them and concluded that Purkey’s situation was distinguishable. We
do not agree with the idea that those cases rigidly describe the outer limits of what might prove that section
2255 is “inadequate or ineffective to test the legality” of
a person’s detention, but as we will see, Purkey’s case
does not require us to move beyond what we already
have done.
Our first occasion to find the safety valve applicable
occurred in Davenport, a case that actually involved
two defendants, Davenport and Nichols. The part of

14a
the opinion pertinent here involved Nichols. He had
been convicted of using a firearm in the commission of a
drug offense, in violation of the version of 18 U.S.C.
§ 924(c) that existed in 1990. After his conviction and a
failed motion under section 2255, the Supreme Court
decided Bailey v. United States, 516 U.S. 137 (1995),
which held that “use” for purposes of section 924(c) did
not include mere possession. Because Nichols’s case
had involved only possession, Nichols sought relief under the All Writs Act, 28 U.S.C. § 1651. The district
court rejected that motion as an attempt to evade the
need to obtain permission from the court of appeals to
file a successive section 2255 motion. 147 F.3d at 607.
We noted that Nichols’s situation fell outside the
narrow rules under which a second or successive motion may be authorized: he did not claim to have any
new evidence, nor was there a new rule of constitutional law that applied to his case. Instead, the Supreme Court had cut the legs out from under the interpretation of his statute of conviction, leaving him in
prison for actions that (as clarified by the Court) did
not constitute a crime. Under those circumstances, we
held that
A procedure for postconviction relief can
fairly be termed inadequate when it is so configured as to deny a convicted defendant any
opportunity for judicial rectification of so fundamental a defect in his conviction as having
been imprisoned for a nonexistent offense.
Id. at 611. We went on to add three qualifications to
that holding. First, “the change of law has to have been
made retroactive by the Supreme Court.” Id. Second,
“it must be a change that eludes the permission in section 2255 for successive motions.” Id. And third,

15a
“ ‘ change in law’ is not to be equated to a difference between the law in the circuit in which the prisoner was
sentenced and the law in the circuit in which he is incarcerated.” Id. at 612. None of these qualifications
applied to Nichols’s case, and so we held that he was
entitled to proceed under section 2241.
The circumstances in Garza were even more unusual than those in Davenport. Like Purkey, petitioner
Garza was on federal death row awaiting execution. He
had been convicted on a number of charges, including
three counts of killing in furtherance of a continuing
criminal enterprise, in violation of 18 U.S.C. § 848(e).
The wrinkle was this: the murders in question had occurred in Mexico, and he had never been charged or
convicted there for them. Instead, the jury in his U.S.
prosecution had found beyond a reasonable doubt at the
capital sentencing phase of his trial that he had committed the murders. See 18 U.S.C. § 3593(c) (requiring the
government to prove aggravating factors beyond a reasonable doubt). After Garza exhausted his direct appeals and his motion under section 2255, he turned to
the Inter–American Commission on Human Rights for
relief. This Commission, established pursuant to the
Organization of American States (to which the United
States is a party), exists to hear this type of claim. This
was the earliest point at which Garza could seek relief,
because the Commission requires applicants to exhaust
national remedies. The Commission concluded that
“Garza’s death sentence was a violation of international
human rights norms to which the United States had
committed itself.” 253 F.3d at 920.
Garza followed up in the district court with a petition under section 2241; he conceded that he did not satisfy the criteria for a successive motion under section
2255. We concluded that he was entitled to use section

16a
2241, because it would have been impossible under the
Inter–American Commission’s exhaustion rule to have
sought relief there in time to include its findings in either his direct appeal or his original section 2255 motion. The treaty on which he relied does not give rise to
private rights of action, and so he could not invoke it in
his original case. But, he contended, the Commission’s
process did create private rights. We found that this
was not such an outlandish claim that our jurisdiction
was defeated, although when we reached the merits in
his case, we concluded that the Commission had only
the power to make recommendations to the U.S. government, which remained free to take them or leave
them. That was not enough to justify a stay of his execution, and so we denied his petition.
The last case in this line is Webster, which was decided by the en banc court. Once again, the result
hinged on the availability of section 2241 (via the safety
valve) for a federal prisoner who had completed his direct appeals and had unsuccessfully pursued a motion
under section 2255. Webster found himself on death
row after being convicted of the federal crime of kidnapping resulting in death and related offenses. 784
F.3d at 1124. Turning to section 2241, he sought to present “newly discovered evidence that would demonstrate that he is categorically and constitutionally ineligible for the death penalty under the Supreme Court’s
decisions in Atkins v. Virginia, 536 U.S. 304 (2002), and
Hall [v. Florida, 572 U.S. 701 (2014)].” Id. at 1125. At
the trial, a central question was whether Webster was
so intellectually impaired that he should not be subject
to the death penalty. The defense introduced evidence
of Webster’s school records, intelligence testing, and
inability to fake test results. The government responded with lay witnesses who all said that Webster “did

17a
not seem mentally retarded to them,” id. at 1130, and
experts who said that Webster was able to perform adequately in school and beyond. Throughout, the government urged that Webster was faking his mental limitations in an effort to avoid the death penalty.
Years after his conviction and the denial of his section 2255 motion, new counsel discovered evidence that
gravely undermined the government’s theory. It
turned out that Webster’s trial counsel had asked the
Social Security Administration for records on Webster
and had been told that there were none. That was
wrong. In fact, the Administration had records dating
from a year before his crime in which Webster had been
described as someone whose “[i]deation was sparse and
this appeared to be more of a function of his lower cognitive ability than of any mental illness.” Id. at 1133.
The same doctor concluded that Webster was both
“mentally retarded and antisocial,” and that there was
no evidence of malingering. Id. There were other records to the same effect.
This was a game–changer for Webster. As we
pointed out in the opinion, there was no question of late
fabrication of the new evidence, and (taking the facts
favorably to Webster), his lawyer had diligently sought
evidence from that very source—the Social Security
Administration. Counsel had no duty to continue pestering the Administration after he had been informed
that it had nothing; he was entitled to take the government at its word. Moreover, these records were far
from cumulative. They directly contradicted the government’s assertion at trial that Webster had concocted
a story of mental disability solely to avoid the death
penalty. A jury aware of those records could conclude
that Webster is categorically ineligible for capital punishment under the Supreme Court’s decision in Atkins.

18a
Much more, therefore, than garden–variety newly discovered evidence was at play. See 784 F.3d at 1140.
Only by using the safety valve could Webster test the
constitutionality of his capital sentence.
Purkey recognizes that his case does not fit the
profile of any of the three we have just discussed, but
he argues that at a broader level, he has presented the
same type of problem and we should thus extend our
earlier cases to his situation. In essence, he argues that
section 2255 is structurally inadequate to test the legality of a conviction and sentence any time a defendant
receives ineffective assistance of counsel in his one
permitted motion. He recognizes that he faces a problem in the line of Supreme Court decisions holding that
there is no right to counsel in collateral proceedings,
and thus no right to effective assistance of counsel. See
Coleman v. Thompson, 501 U.S. 722 (1991). But, he
points out, Coleman is not the last word on this subject.
In Martinez v. Ryan, 566 U.S. 1 (2012), and Trevino v.
Thaler, 569 U.S. 413 (2013), the Supreme Court recognized that a state prisoner whose first opportunity (either de jure or de facto) to raise an ineffectiveness–of–
counsel argument is in state post–conviction proceedings can avoid procedural default in a later action under
28 U.S.C. § 2254 if he can show ineffectiveness of post–
conviction counsel. And, he adds, this court held in
Ramirez v. United States, 799 F.3d 845 (7th Cir. 2015),
that a federal prisoner could seek to reopen an action
under section 2255 using Federal Rule of Civil Procedure 60(b) on reasoning that is analogous to Martinez
and Trevino.
With that much established, Purkey jumps from
the ability to use Rule 60(b) to reopen a section 2255
case to the assumption that any federal prisoner whose
counsel is ineffective during his initial section 2255 pro-

19a
ceeding can show that a motion under section 2255 is
inadequate or ineffective and thus that he is entitled to
avail himself of section 2241. At oral argument, Purkey
also offered a narrower version of this theory, applicable only to capital cases. Because defendants facing the
federal death penalty have a statutory right to counsel
in a section 2255 proceeding, see 18 U.S.C. § 3599(a)(2),
Purkey reasons that ineffectiveness of that counsel deprives a defendant of effective collateral review and
thus permits the defendant to resort to section 2241.
The government strenuously opposes this line of
reasoning, which it sees as unraveling all of the restrictions Congress has imposed on collateral relief for
federal prisoners. It also points out that there is a difference between lacking an opportunity to raise a claim,
and having that opportunity but not using it effectively.
At best, it concludes, Purkey is in the latter situation.
He had and used the opportunity to raise his complaints
about ineffective assistance of trial counsel during his
section 2255 proceeding. The fact that new counsel
have now uncovered even more instances of ineffective
assistance is not surprising, but, it says, the same will
be true in countless other cases. Vincit omnia finis.
IV
Although we do not believe that Davenport, Garza,
and Webster create rigid categories delineating when
the safety valve is available—and such a finding would
be inconsistent with the standard–based language of
section 2255(e)—we do think that the words “inadequate or ineffective,” taken in context, must mean
something more than unsuccessful. We said as much in
Webster. 784 F.3d at 1136. In Davenport, that something more came from the structure of the statute.
Statutory problems are simply not covered in section

20a
2255, whether through oversight or through confidence
that the safety valve would solve the rare problem that
arises when, because of an intervening Supreme Court
decision, a person discovers that he is in prison for
something that the law does not criminalize. In Garza,
that something more arose because of an international
treaty whose machinery could not be invoked until after the person had exhausted national remedies. And
in Webster, the combined facts of the Social Security
Administration’s alleged mis–information to counsel,
counsel’s diligence, the timing of the discovery of the
critical evidence, and the constitutional ban on executing the mentally disabled had the effect of making section 2255 structurally unavailable and opening the door
to the section 2241 proceeding. We need not speculate
on what other scenarios might satisfy the safety valve,
other than to say that there must be a compelling showing that, as a practical matter, it would be impossible to
use section 2255 to cure a fundamental problem. It is
not enough that proper use of the statute results in denial of relief.
At the time Purkey filed his motion under section
2255, nothing formally prevented him from raising each
of the three errors he now seeks to raise in his petition
under 2241. The first of those relates to the failure of
trial counsel not to spot the fact that Juror 13 (whose
first name was also Jennifer) had disclosed on her jury
questionnaire that she too had been the victim of an attempted rape when she was 16 years old. Because trial
counsel never noticed that glaring fact, he did not object to Juror 13’s being seated, and she in fact served on
the jury that convicted Purkey and voted for the death
penalty.
We can accept as true the fact that Purkey’s trial
counsel missed this disturbing coincidence, and it may

21a
be likely that if counsel had noticed it and moved to
strike Juror 13 for cause, such a motion would have
been granted. But that is not the proper question before us now. It is instead whether, having raised in his
section 2255 motion 17 specific ways in which his trial
counsel were ineffective, Purkey is now entitled to add
additional allegations not by obtaining permission to
file a successive section 2255 motion, but through section 2241. Purkey says yes and points to the fact that
section 2255 counsel also missed the problem with Juror 13. But how far are we supposed to take that?
What if we were now to permit a section 2241 proceeding, Purkey were to lose, and new counsel were to come
in and discover that trial counsel also failed to make a
meritorious Batson objection? Would the ineffectiveness of the first lawyers who litigated the section 2241
proceeding entitle him to a new section 2241 proceeding? If not, why not? And if so, what would stop a never–ending series of reviews and re–reviews (particularly since there is no numerical limit for section 2241)?
Purkey has offered no satisfactory answers to these
questions, and we can think of none.
Instead, as the law now stands, once a Sixth
Amendment claim of ineffective assistance of counsel
has been raised, as happened in Purkey’s case, that is
the end of the line. In evaluating applications for permission to file a second or successive petition under 28
U.S.C. § 2254 (the habeas corpus statute for state prisoners), we are required to dismiss a claim “that was
presented in a prior application.”
28 U.S.C.
§ 2244(b)(1). We apply the same rule to second or successive motions under section 2255. Pertinent here, if
an applicant has already raised a Sixth Amendment ineffectiveness claim in an earlier application—even if the
specific details of the ineffective performance are dif-

22a
ferent—we must dismiss a new claim of ineffective assistance of the same lawyer. This rule flows from the
Supreme Court’s instruction to “consider the totality of
the evidence before the judge or jury” in evaluating a
claim of ineffectiveness, not each particular instance of
ineffective performance in isolation. Strickland v.
Washington, 466 U.S. 668, 695 (1984).
No system is perfect, and we find it troubling that
these rules will leave some people under even a sentence of death (the ultimate irrevocable action) in the
position of never having received effective assistance of
counsel in the critical respect. It is thus worth nothing
that nothing prevents Congress from changing the
rules, especially for capital cases, to ensure that the ultimate penalty is not carried out on someone who fell
through the cracks and did not get the quality of legal
assistance to which the Constitution entitles him. But,
as we noted at the outset, in a human institution there
is always some risk of error. All we can do is to strive
to minimize it and to follow the law to the best of our
ability.
Our analysis of Purkey’s second proposed argument for his section 2241 petition is similar. Current
counsel have undertaken a much more comprehensive
search for, and analysis of, the extensive mitigating evidence than trial counsel or section 2255 counsel had
performed. The section 2241 petition sets out this evidence over nearly 100 pages. Most of this evidence
goes well beyond the evidence that post–conviction
counsel presented in Purkey II and that the Eighth
Circuit discussed in Purkey V. We agree with Purkey
that the efforts of trial counsel to build a case for mitigation fell short of what current counsel have now
found. But the critical question, as the Eighth Circuit
noted in Purkey V, is whether there is a reasonable

23a
probability that this evidence would have changed the
jury’s sentencing recommendation, or if, on the other
hand, it was essentially cumulative.
At this point, we must comment that we are disturbed that the jury left blank the spaces on the verdict
form for its consideration of Purkey’s many trial arguments in mitigation, and that trial counsel did not insist
that the case be returned to the jury for completion of
those blanks when he had the chance. If the jury really
meant that it thought that Purkey had failed to carry
his burden on each and every point, it should have been
required to say so. Once it was focusing on mitigation,
however, it may have found some points in Purkey’s
favor. There is no doubt, even based on only the trial
evidence, that Purkey has had a hideous life. It was for
the jury to balance aggravating and mitigating factors,
but it is hard to know whether it did that.
Once again, however, this fault was apparent to
everyone from the minute the jury returned its verdict.
Trial counsel commented on it; original appellate counsel knew about it; and section 2255 counsel knew about
it. We have no idea at this remove why counsel did not
preserve this point throughout these proceedings.
What we do know is that lawyers must pick and choose
among issues, and it is not out of the question that
Purkey’s lawyers thought it better to focus on more
promising arguments. Even if they did not analyze this
point, we are left with the fundamental problem for
Purkey: the mechanisms of section 2255 gave him an
opportunity to complain about ineffective assistance of
trial counsel, and he took advantage of that opportunity. There was nothing structurally inadequate or ineffective about section 2255 as a vehicle to make those
arguments.

24a
Finally, Purkey would like to argue that section
2255 counsel fell below the standards established by the
Sixth Amendment (and perhaps section 3599(a)(2))
when counsel omitted any challenge to the use of
Purkey’s testimony at his suppression hearing. Recall
that Purkey had confessed several times to both local
police and the FBI that he had “kidnapped” Long,
meaning that he had taken her across state lines without her consent. At the suppression hearing (according
to Purkey), trial counsel advised him to stick with that
story, even though trial counsel knew that it was untrue and that Purkey believed that Long had gone with
him willingly. This is somewhat convoluted, in our
view, but as best we understand it, Purkey complied
with counsel’s advice at the suppression hearing and
continued to maintain that he had coerced Long into
driving to Kansas with him. At the suppression hearing, Purkey also wanted to show that this confession
was involuntary, because he gave it only in the erroneous belief that the government was prepared to seek a
lighter sentence in federal court if he confessed.
At the trial Purkey gave the jury a new version of
events: he thought Long was a prostitute, she went
willingly with him not only into the truck but from Missouri to Kansas, and only then did the murder occur.
Obviously that would have invited prosecution from
Kansas, but the link necessary for federal jurisdiction
would have disappeared (or so Purkey thought). When
Purkey presented his account, however, the government impeached his testimony with his statements at
the suppression hearing. Trial counsel did not object,
nor did he object when the government used the same
statements to prove the truth of the matter in its closing argument.

25a
These too are arguments about effectiveness of
counsel that were apparent from the start. The question of Long’s willingness to travel with Purkey was
relevant, but it was up to the jury to decide whether to
believe his confessions or his recantation. The record
shows that both stories were on the record, and so the
government was entitled to use his earlier version as
impeachment. If it strayed over the line, that is a problem, but it is too late to correct it (and it is not clear to
us that this would have been prejudicial, in light of all
the evidence against Purkey at the trial).
V
Purkey has raised serious arguments in this appeal—particularly his points about Juror 13 and the
failure to conduct an adequate mitigation investigation—and we do not mean to minimize them even
though we have ruled against him. He is correct that
the Supreme Court’s decisions in Martinez and Trevino
can be read to say that a person can overcome a procedural bar to bringing a claim of ineffective assistance of
trial counsel in a federal court, if counsel in postconviction proceedings was him- or herself ineffective. The
idea of an entitlement to one untainted opportunity to
make one’s case is deeply embedded in our law. Purkey
argues that he has yet to have that one opportunity.
He also asks why it should matter if, in Martinez and
Trevino, the ineffective lawyer was engaged in a statecourt proceeding, whereas here, the ineffective lawyer
was engaged in a federal-court proceeding, particularly
after our ruling in Ramirez.
But the problem is that the availability of further
relief for someone in Purkey’s position is not a simple
matter of federal common law. It is governed by statutes. In this case, the pertinent statute is 28 U.S.C.

26a
§ 2255(e), a statute that played no part in Ramirez. For
the reasons we have discussed, we conclude that
Purkey is not entitled to raise his new arguments in a
petition for a writ of habeas corpus under 28 U.S.C.
§ 2241. We thus AFFIRM the judgment of the district
court.
Before concluding this opinion, however, we have
one more piece of unfinished business to be resolved.
As we noted earlier, 24 hours before the oral argument
in this appeal, the government set Purkey’s execution
date for July 15, 2020. Purkey promptly moved for a
stay of execution during the pendency of these proceedings. The government has opposed his motion.
The Supreme Court set forth the requirements for
a stay in Nken v. Holder, 556 U.S. 418 (2009):
(1) whether the stay applicant has made a
strong showing that he is likely to succeed on
the merits; (2) whether the applicant will be irreparably injured absent a stay; (3) whether issuance of the stay will substantially injure the
other parties interested in the proceeding; and
(4) where the public interest lies.
Id. at 434. Importantly, although the Nken Court held
that something more than a “better than negligible”
chance of success is necessary, it also stressed that the
injury the applicant faced in its own case was not “categorically irreparable.” Id. at 434-35. Although we
have ruled against Purkey on the merits, we have emphasized that at least two of the points he has raised
are worthy of further exploration—the seating of Juror
13, and the failure of trial counsel to conduct a proper
mitigation analysis. We have rejected those points not
on the merits, but because of our understanding of the
safety valve language, 28 U.S.C. § 2255(e). If our read-

27a
ing of the safety valve is too restrictive, there would be
significant issues to litigate. And, unlike the alien in
Nken, Purkey faces categorically irreparable injury—
death. A brief stay to permit the orderly conclusion of
the proceedings in this court will not substantially
harm the government, which has waited at least seven
years to move forward on Purkey’s case. Finally, the
public interest is surely served by treating this case
with the same time for consideration and deliberation
that we would give any case. Just because the death
penalty is involved is no reason to take shortcuts—
indeed, it is a reason not to do so.
For these reasons, we grant Purkey’s motion on
the following terms. His July 15, 2020, date of execution is temporarily stayed pending the completion of
proceedings in the Seventh Circuit. This stay will expire upon the issuance of this court’s mandate or as
specified in any subsequent order that is issued.

29a
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
No. 2:19-cv-00414-JPH-DLP
WESLEY IRA PURKEY,
Petitioner,
v.
UNITED STATES OF AMERICA, ET AL,
Respondents.
Filed November 20, 2019
ORDER DENYING PETITION FOR A
WRIT OF HABEAS CORPUS
Wesley Purkey is a federal prisoner on death row
at the United States Penitentiary in Terre Haute, Indiana. He was sentenced to death 16 years ago in the
United States District Court for the Western District
of Missouri after a jury found him guilty of kidnapping
and murdering Jennifer Long. The conviction and sentence were affirmed on direct appeal. Mr. Purkey
sought postconviction relief under 28 U.S.C. § 2255 in
the district court where he was convicted and sentenced. That request was denied by the district court
and affirmed on appeal.
Mr. Purkey cannot bring a successive § 2255 motion
in the court of conviction, so he seeks relief from this
Court in the form of a 28 U.S.C. § 2241 petition that

30a
raises eight claims. These claims, however, cannot be
raised and adjudicated under § 2241 because they do
not fall within any of the limited circumstances the
Seventh Circuit has recognized when a federal prisoner
may challenge a conviction and sentence by way of
§ 2241. Moreover, there is not a structural problem
with § 2255 when applied to Mr. Purkey’s case. For
these reasons, Mr. Purkey’s § 2241 action must be dismissed and his petition for a writ of habeas corpus denied.
I.
A full recitation of the facts and procedural background is set forth in the two opinions issued by the
United States Court of Appeals for the Eighth Circuit
following Mr. Purkey’s appeals. See United States v.
Purkey, 428 F.3d 738, 744-46 (8th Cir. 2005) (“Purkey
I”); United States v. Purkey, 729 F.3d 860, 866-68 (8th
Cir. 2013) (“Purkey II”).
A. Factual Background
While the details of Mr. Purkey’s crimes are not
relevant to the ultimate resolution of his legal claims, a
brief summary is appropriate for context.
Jennifer Long, a sixteen-year-old high school sophomore, disappeared in January 1998. Purkey I, 428
F.3d at 745. She was walking on a sidewalk in Missouri
when Mr. Purkey picked her up in his truck and drove
her to his house in Kansas. Purkey II, 729 F.3d at 86667. Mr. Purkey raped her and, after she attempted to
escape, “became enraged and repeatedly stabbed [her]
in the chest, neck, and face with [a] boning knife, eventually breaking its blade inside her body.”
Id.
Mr. Purkey dismembered her body with a chainsaw,

31a
burned her remains in his fireplace, and dumped them
into a septic pond. Id.
No one knew what happened to Jennifer Long until
December 1998. Purkey I, 428 F.3d at 745. At that
time, Mr. Purkey faced a life sentence for murdering
eighty-year-old Mary Ruth Bales, whom Mr. Purkey
bludgeoned to death with a hammer in her own home.
Purkey II, 729 F.3d at 867–68. Mr. Purkey confessed to
law enforcement that he had kidnapped, raped, and
murdered Jennifer Long earlier that year. Id. He also
admitted taking “extraordinary measures to dispose of
the body, including dismembering it with a chain saw
and burning the remains[.]” Purkey I, 428 F.3d at 745.
Law enforcement recovered remnants of crushed human bones where Mr. Purkey told them he had disposed of them, and in his former house where the murder took place. Mr. Purkey led law enforcement to
where he left her remains. Id; Purkey II, 729 F.3d at
867; Dkt. 33-1 at 76–78.
B. Procedural Background
Mr. Purkey was indicted for the kidnapping and
murder of Jennifer Long on October 10, 2001, in the
United States District Court for the Western District
of Missouri. See United States v. Purkey, No. 4:01-cr00308-FJG (W.D. Mo. Oct. 10, 2001), Dkt. 1. On November 5, 2003, a jury found Mr. Purkey guilty. Id.,
Dkt. 461.
The separate penalty phase of the proceedings
lasted seven days. Mr. Purkey’s counsel presented 27
mitigating factors, including evidence of brain abnormalities and abuse as a child. Dkt. 23-37 at 94-97. The
mitigation evidence included the testimony of 18 witnesses over two days. Dkt. 38-1; Dkt. 39-1; Dkt. 40-1;
Dkt. 41-1; Dkt. 42-1. Finding the existence of all six

32a
statutory aggravating factors, the jury recommended a
sentence of death. Purkey, No. 4:01-cr-00308-FJG, Dkt.
487. The District Court sentenced Mr. Purkey to death
on January 23, 2004. Id., Dkt. 505.
Mr. Purkey appealed his conviction and sentence to
the United States Court of Appeals for the Eighth Circuit. He raised several challenges to the pretrial proceedings, jury selection, and the guilt and penalty
phases. Purkey I, 428 F.3d at 746–64. One of those
challenges—which is similar to claims before this
Court—was that the District Court erred by accepting
the mitigating factors portion of the verdict without
requiring the jury to write out their specific findings.
Id. at 763. The Eighth Circuit rejected Mr. Purkey’s
claims and affirmed his conviction and sentence. Id. at
764. Mr. Purkey’s petition for writ of certiorari was
denied by the United States Supreme Court on October
16, 2006. See Purkey v. United States, 127 S. Ct. 433
(2006).
On November 25, 2006, Mr. Purkey initiated postconviction proceedings by filing a motion to vacate, set
aside, or correct sentence under 28 U.S.C. § 2255 in the
United States District Court for the Western District
of Missouri. See Purkey v. United States, 2009 WL
3160774 (W.D. Mo. Sept. 29, 2009). The same District
Judge who presided over Mr. Purkey’s trial presided
over his § 2255 motion.
Mr. Purkey made 17 allegations of ineffective assistance against his trial counsel—Frederick Duchardt, Jr.
and Laura O’Sullivan. Id. at *1-3. Mr. Duchardt submitted a 117-page affidavit to “refute” Mr. Purkey’s
claims. Id. at *2. The District Court substantially relied on Mr. Duchardt’s affidavit in rejecting the ineffective assistance of counsel claims. Id. Mr. Purkey also

33a
alleged several due process violations. Id. at *3-5. The
District Court rejected these claims as well and denied
Mr. Purkey’s § 2255 motion. Id. at *6. The District
Court later denied Mr. Purkey’s Rule 59(e) motion to
alter or amend the judgment, see Purkey v. United
States, 2009 WL 5176598, *3 (W.D. Mo. Dec. 22, 2009),
and his request for a certificate of appealability, see
Purkey v. United States, 2010 WL 4386532, *10 (W.D.
Mo. Oct. 28, 2010).
Mr. Purkey sought a certificate of appealability
from the Eighth Circuit on several claims, see Dkt. 4813, but the Eighth Circuit granted Mr. Purkey a certificate of appealability on only two of them, see Purkey II,
729 F.3d at 861; Dkt. 48-14. First, the Eighth Circuit
permitted Mr. Purkey to raise three issues regarding
the ineffectiveness of his trial counsel during the penalty phase: “(1) his alleged failure to adequately prepare
and present the testimony of three expert witnesses,
(2) his alleged failure to adequately investigate and
prepare two mitigating witnesses, which resulted in
their testimony being more prejudicial than beneficial,
and (3) his alleged failure to adequately investigate and
present other mitigating evidence.” Purkey II, 729
F.3d at 862. These issues are similar to the second
claim Mr. Purkey raises in this Court. Second, the
Eighth Circuit permitted Mr. Purkey to challenge
whether the District Court abused its discretion by
denying relief without an evidentiary hearing. Id.
The Eighth Circuit rejected both of Mr. Purkey’s
claims. It reasoned that it need not decide whether
Mr. Purkey could establish deficient performance—and
consequently did not consider Mr. Duchardt’s affidavit—because Mr. Purkey could not establish prejudice
given the “particularly gruesome” nature of the crime.
Id. at 862-68 & n.2. As to whether the District Court

34a
should have held an evidentiary hearing, the Eighth
Circuit reasoned that Mr. Purkey could not establish
prejudice even taking his evidence as true, so it was not
an abuse of discretion to decline to hold an evidentiary
hearing. Id. at 869.
Mr. Purkey petitioned for panel rehearing, Dkt. 4815, which the Eighth Circuit denied on December 17,
2013, Dkt. 48-16.
The Supreme Court denied
Mr. Purkey’s petition for writ of certiorari on October
14, 2014. See Purkey v. United States, 135 S. Ct. 355
(2014).
On July 25, 2019, the Department of Justice set
Mr. Purkey’s execution date for December 13, 2019. He
filed the instant habeas petition under 28 U.S.C. § 2241
on August 27, 2019. He filed an amended petition on
September 12, 2019. The petition was fully briefed on
October 28, 2019.
II
Mr. Purkey raises eight claims in his § 2241 petition:
(1) trial counsel provided ineffective assistance by failing to challenge Juror 13;
(2) trial counsel provided ineffective assistance by failing to investigate, develop, and present compelling mitigation evidence;
(3) Mr. Duchardt perpetrated a fraud on the Court during the § 2255 proceedings by submitting an affidavit
containing false and misleading statements to undermine Mr. Purkey’s ineffective assistance of counsel
claims;
(4) Mr. Purkey’s death sentence violates the Eighth
Amendment because there is a substantial possibility

35a
that the jury instructions led the jury to believe that
they could not consider certain mitigating evidence;
(5) Mr. Purkey’s death sentence violates the Sixth
Amendment because the jury did not find beyond a
reasonable doubt each fact necessary to impose a death
sentence;
(6) imposition of the death penalty under the Federal
Death Penalty Act violates the Eighth Amendment;
(7) imposition of the death penalty on individuals such
as Mr. Purkey who suffer from a severe mental illness
violates the Eighth Amendment; and
(8) trial counsel provided ineffective assistance by improperly advising Mr. Purkey before he testified at the
pre-trial suppression hearing. See Dkt. 23.
The United States takes the position that the Court
cannot reach the merits of these claims because
Mr. Purkey cannot raise them in a § 2241 petition. Dkt.
49. That’s true if Mr. Purkey cannot meet the requirements of 28 U.S.C. § 2255(e)—commonly referred to as
the Savings Clause. See Webster v. Daniels, 784 F.3d
1123, 1135 (7th Cir. 2015) (en banc). Mr. Purkey argues
that some of his claims meet these requirements. Dkt.
23; Dkt. 58.
III
The Court begins its analysis by examining the
statutory framework governing federal prisoners’ postconviction challenges. The Court next assesses whether Seventh Circuit precedent requires or allows
Mr. Purkey’s claims to proceed under the Savings
Clause. The Court then turns to Mr. Purkey’s arguments for recognizing a new category of claims that can
be brought via § 2241.

36a
C. Statutory Framework for Federal Prisoner
Seeking Postconviction Relief
The only way a federal prisoner may pursue postconviction relief in a separate civil action is under 28
U.S.C. §§ 2255 and 2241.
1. Section 2255
“As a general rule, a federal prisoner wishing to
collaterally attack his conviction or sentence must do so
under § 2255.” Chazen v. Marske, 938 F.3d 851, 856
(7th Cir. 2019). Congress has placed limitations on a
federal prisoner’s ability to bring a § 2255 action. First,
such action can only be brought in the court which imposed the sentence. 28 U.S.C. § 2255(a). Second, a federal prisoner is limited to bringing one § 2255 motion,
unless the court of appeals for the district where the
action is filed determines that a second or successive
motion contains:
(1) newly discovered evidence that, if proven
and viewed in light of the evidence as a whole,
would be sufficient to establish by clear and
convincing evidence that no reasonable factfinder would have found the movant guilty of
the offense; or
(2) a new rule of constitutional law, made retroactive to cases on collateral review by the
Supreme Court, that was previously unavailable.
28 U.S.C. § 2255(h).
2. The Savings Clause and Section 2241
Congress created within § 2255 a narrow exception
to the “general rule” that requires a federal prisoner to
bring a collateral attack under § 2255—the Savings
Clause. Under the Savings Clause, a prisoner can seek

37a
a writ of habeas corpus through an action under § 2241
if the prisoner can show “that the remedy by [§ 2255]
motion is inadequate or ineffective to test the legality
of his detention.” 28 U.S.C. § 2255(e). Unlike a § 2255
action, which must be brought in the district where the
sentence was imposed, a § 2241 action must be brought
in the district where the prisoner is in custody. Webster, 784 F.3d at 1124.
Consistent with the “general rule,” the Savings
Clause “steers almost all prisoner challenges to their
convictions and sentences toward § 2255” and away
from § 2241. Shepherd, 911 F.3d 861, 862 (7th Cir.
2018). Consequently, a federal prisoner may seek relief
under § 2241 “[o]nly in rare circumstances where § 2255
is inadequate or ineffective to test the legality of the
prisoner’s detention .…” Light v. Caraway, 761 F.3d
809, 812 (7th Cir. 2014) (citations and quotations omitted). To determine whether Mr. Purkey’s petition presents such a “rare circumstance,” the Court looks to
Seventh Circuit precedent.
D. Instances Where the Seventh Circuit has
Found the Savings Clause to Apply
Determining whether § 2255 is inadequate or ineffective is a “very knotty procedural issue” of “staggering” complexity. Chazen, 938 F.3d at 855-56. While it
is “hard to identify exactly what [the Savings Clause]
requires,” id. at 863 (Barrett, J., concurring), several
guiding principles have emerged from the cases.
Section 2255 is inadequate or ineffective as applied
to a specific case only where there is “some kind of
structural problem with section 2255.” Webster, 784
F.3d at 1136. A structural problem requires “something more than a lack of success with a section 2255
motion.” Id. It must “foreclose[] even one round of ef-

38a
fective collateral review, unrelated to the petitioner’s
own mistakes.” Poe v. LaRiva, 834 F.3d 770, 773 (7th
Cir. 2016) (citation and quotation omitted). Section 2255
is inadequate or ineffective where the court finds that
the federal prisoner did not have “a reasonable opportunity [in a prior § 2255 proceeding] to obtain a reliable
judicial determination of the fundamental legality of his
conviction and sentence.” Chazen, 938 F.3d at 856 (alteration in original) (quoting In re Davenport, 147 F.3d
605, 609 (7th Cir. 1998)).
Applying these principles, the Seventh Circuit has
found a structural problem with § 2255 in three instances:
1.

When a claim is based on a new rule of statutory law made retroactive by the Supreme Court.
See Davenport, 147 F.3d at 610.

2.

When a claim is based on a decision of an international tribunal that could not have been
raised in an initial § 2255 motion. See Garza v.
Lappin, 253 F.3d 918, 920 (7th Cir. 2001).

3.

When a claim is based on limited types of new
evidence that “would reveal that the Constitution categorically prohibits a certain penalty.”
Webster, 784 F.3d at 1139.

See id. at 1135–36 (analyzing Davenport—which contains the Seventh Circuit’s “most extensive treatment”
of the Savings Clause—and Garza when setting out the
Seventh Circuit’s Savings Clause precedents); see also
Fulks v. Krueger, 2019 WL 4600210, *3 (S.D. Ind. Sept.
20, 2019). The parties appear to agree that these three
cases identify the structural problems with § 2255 recognized by the Seventh Circuit. See Dkt. 49 at 38–42;
Dkt. 58 at 7–9.

39a
1. Davenport
In Davenport, the Seventh Circuit found a structural problem in § 2255 because § 2255(h) does not permit federal prisoners to file a second or successive
§ 2255 motion raising claims based on new statutory
law. The petitioner sought the benefit of a Supreme
Court decision changing the Seventh Circuit’s interpretation of a statute that existed at the time of his first
§ 2255 motion. Davenport, 147 F.3d at 610. Because
the Supreme Court changed the governing law after
the petitioner’s § 2255 proceedings had concluded, he
“could not [have] use[d] a first motion under [§ 2255] to
obtain relief on a basis not yet established by law.” Id.
Nor could he have received authorization to file “a second or other successive motion [under § 2255(h)] … because the basis on which he [sought] relief [was] neither
newly discovered evidence nor a new rule of constitutional law.” Id. (emphasis added); see Poe, 834 F.3d at
773 (“Where Davenport recognized a structural problem in § 2255(h) is in the fact that it did not permit a
successive petition for new rules of statutory law made
retroactive by the Supreme Court.”). This structural
problem was fixed in Davenport “by effectively giving
such prisoners the relief that they would have had if
§ 2255(h)(2) had included them.” Chazen, 938 F.3d at
864 (Barrett, J., concurring).
The Seventh Circuit has “developed a three-part
test implementing Davenport’s holding.” Beason v.
Marske, 926 F.3d 932, 935 (7th Cir. 2019). The petitioner must establish that:
(1) the claim relies on a statutory interpretation case, not a constitutional case and thus
could not have been invoked by a successive
§ 2255 motion; (2) the petitioner could not have

40a
invoked the decision in his first § 2255 motion
and the decision applies retroactively; and (3)
the error is grave enough to be deemed a miscarriage of justice.
Id.
2. Garza
In Garza, the Seventh Circuit again found a structural problem with § 2255 rooted in § 2255(h). After the
conclusion of the petitioner’s first § 2255, he received a
decision from the Inter-American Commission on Human Rights finding that his rights were violated during
the penalty phase of his criminal trial. Garza, 253 F.3d
at 920. The petitioner wished to use this decision to
challenge his death sentence. Id. Notably, the petitioner could not have petitioned the Inter-American
Commission on Human Rights for relief until he had
exhausted his “national remedies”—that is, until after
he had filed a § 2255 motion. Id. Because it was “literally impossible” for the petitioner to have raised his
claim in his § 2255 motion, there was a structural problem with § 2255 in that it did not “provide[] an adequate
avenue for testing Garza’s present challenge to the legality of his sentence.” Id. at 922–23. Simply put, the
petitioner could not have raised his claim in his initial
§ 2255, nor, as in Davenport, could he have received authorization to file a second or successive § 2255 motion
under § 2255(h). Id. at 923.
3. Webster
In Webster, the Seventh Circuit held for the first
and only time that the Savings Clause was met for a
constitutional claim. The petitioner in Webster sought
to challenge his death sentence as barred by Atkins v.
Virginia, 536 U.S. 304 (2002), which held that the
Eighth Amendment forbids the execution of a person

41a
with an intellectual disability. Although the petitioner
had raised an Atkins claim in his § 2255 proceeding, he
wished to present “newly discovered evidence” to support that claim in his § 2241 petition. Webster, 784 F.3d
at 1125.
The Seventh Circuit found that “there is no categorical bar against resort to section 2241 in cases where
new evidence would reveal that the Constitution categorically prohibits a certain penalty.” Id. at 1139. The
structural problem identified by the Seventh Circuit
was based on at least two concerns. First, § 2255(h)(1)
only allows a second or successive § 2255 motion if newly discovered evidence meets a certain threshold to
demonstrate that the petitioner is not guilty of the offense. Id. at 1134–35, 1138. It does not allow for such
motions if the petitioner presents newly discovered evidence that the petitioner is ineligible to receive his
sentence. Id. Second, Congress could not have contemplated whether claims of categorical ineligibility for
the death penalty should be permitted in second or successive § 2255 motions because the relevant cases—
Atkins and Roper v. Simmons, 543 U.S. 551 (2005)2—
had not been decided when § 2255 was enacted. Webster, 784 F.3d at 1138 (“[T]he fact that the Supreme
Court had not yet decided Atkins and Roper at the
time AEDPA was passed supports the conclusion that
the narrow set of cases presenting issues of constitutional ineligibility for execution is another lacuna in the
statute.”); id. at 1139 (“In Webster’s case, the problem
is that the Supreme Court has now established that the
2

In Roper, the Supreme Court held it violates the Eighth and
Fourteenth Amendments to impose “the death penalty on offenders who were under the age of 18 when their crimes were committed.” 543 U.S. at 578.

42a
Constitution itself forbids the execution of certain people: those who satisfy the criteria for intellectual disability that the Court has established, and those who
were below the age of 18 when they committed the
crime.”).
Webster is the first and only time the Seventh Circuit permitted a constitutional claim to proceed through
the Savings Clause. Indeed, the court “took great care
to assure that its holding was narrow in scope.” Poe,
834 F.3d at 774. It limited its holding to the narrow legal and factual circumstances presented in the case,
stating explicitly that the case “will have a limited effect on future habeas corpus proceedings.” Webster,
784 F.3d at 1140 n.9; see Poe, 834 F.3d at 774 (“[T]here
is nothing in Webster to suggest that its holding applies
outside the context of new evidence.”).
To fall within Webster’s holding, the new evidence
must meet three conditions:
First, the evidence sought to be presented
must have existed at the time of the original
proceedings. … Second, the evidence must
have been unavailable at the time of trial despite diligent efforts to obtain it. Third, and
most importantly, the evidence must show that
the petitioner is constitutionally ineligible for
the penalty he received. Because the Supreme
Court has declared only two types of persons
(minors and the intellectually disabled) categorically ineligible for a particular type of punishment, our ruling is as a matter of law limited
to that set of people—those who assert that
they fell into one of these categories at the time
of the offense. These three limitations are

43a
more than adequate to prevent the dissent’s
feared flood of section 2241 petitions[.]
Webster, 784 F.3d at 1140 n.9. It’s thus “a rare case”
that qualifies. Id. at 1140.
In sum, the Seventh Circuit has found a structural
defect in § 2255 in three instances, each limited to a
narrowly identified specific type of claim.
E. Mr. Purkey’s Claims Do Not Fit within Any of
the Instances Where the Seventh Circuit Has
Found the Savings Clause to Apply
Mr. Purkey’s claims do not fall within the holdings
of Davenport, Garza, or Webster. Mr. Purkey’s claims
are all constitutional rather than statutory, so none of
them meet Davenport’s first requirement. See Poe, 834
F.3d at 773 (explaining that Davenport “preclude[s] use
of § 2241 for a constitutional case”). The structural defect in § 2255 identified in Davenport—that § 2255(h)
does not permit successive § 2255 motions “for new
rules of statutory law made retroactive by the Supreme
Court,” id.—therefore does not apply to any of his
claims.
Mr. Purkey’s claims do not fit within Garza’s narrow holding. Unlike the petitioner’s claims in Garza—
which were based on the decision of an international
tribunal and could not possibly have been raised in his
initial § 2255 motion—Mr. Purkey’s claims are common
constitutional claims that can be raised in a § 2255 motion and thus do not implicate the structural concern
identified in Garza. Notably, the Seventh Circuit has
recognized that Garza involved “‘very unusual facts’ …
[and thus] its applicability beyond those facts is limited.” Kramer v. Olson, 347 F.3d 214, 218 n.1 (7th Cir.
2003) (quoting Garza, 253 F.3d at 921).

44a
Last, Mr. Purkey’s claims do not fall within Webster’s narrow holding. Among other limitations, Webster only applies to claims that an individual is “categorically ineligible for the death penalty,” such as claims
under Atkins and Roper. Webster, 784 F.3d at 1138-40;
see id. at 1140 n.9 (“Because the Supreme Court has declared only two types of persons (minors and the intellectually disabled) categorically ineligible for a particular type of punishment, our ruling is as a matter of law
limited to that set of people—those who assert that
they fell into one of these categories at the time of the
offense.”).3 Only one of Mr. Purkey’s claims meets this
requirement—his claim that Atkins should be extended
to preclude execution of those who are mentally ill. Dkt.
23 at 199. But Mr. Purkey does not present any argument that this claim meets the Savings Clause, let
3

For the first time in his reply, Mr. Purkey presents a cursory argument for why the Savings Clause is met for Claim 4 (that
the jury instructions led the jury to believe that they could not
consider certain mitigating evidence) and Claim 6 (the death penalty violates the Eighth Amendment). See Dkt. 58 at 67-69. He
argues that Claim 4 falls within Webster because he relies on new
evidence—namely, juror affidavits that purportedly show that jurors misunderstood the jury instructions. Id. at 66-67. But, as explained, this claim does not meet Webster’s third limitation.
As to Claim 6, he argues that this claim relies on new law—
the Supreme Court’s decision in Hurst v. Florida, 136 S. Ct. 616
(2016)—and thus his claim falls within Garza and Webster. Dkt. 58
at 68-69. Webster is of no assistance for this claim, as it does not
rely on new evidence. Poe, 834 F.3d at 774 (“[T]here is nothing in
Webster to suggest that its holding applies outside the context of
new evidence.”). Garza is also of no assistance, as nothing in it
suggests that simply relying on a new legal precedent can meet
the Savings Clause. If it did, Garza would not be described by the
Seventh Circuit as having only “limited” applicability beyond its
“‘very unusual facts.’” Kramer, 347 F.3d at 218 (quoting Garza,
253 F.3d at 921).

45a
alone a specific argument that it meets the requirements of Webster by, for example, showing that the
claim relies on newly discovered evidence that existed
at the time of the original proceeding. See Dkt. 23; Dkt.
58. Accordingly, Mr. Purkey’s claims cannot proceed
through the Savings Clause via the structural defect in
§ 2255 identified in Webster.
Recognizing that his claims do not fall within the
specific holdings of Davenport, Garza, or Webster, dkt.
58 at 7-8, Mr. Purkey argues that he can nonetheless
meet the general Savings Clause test set forth in these
cases. Id. at 7-9. In other words, Mr. Purkey asks this
Court to extend the Seventh Circuit’s Savings Clause
precedents to new types of claims. The Court now
turns to these arguments.
F. The Martinez–Trevino Doctrine Does Not
Apply to Mr. Purkey’s Case
Mr. Purkey’s only fully developed Savings Clause
argument is for his ineffective assistance of trial counsel claims (Claims 1, 2, and 8).4 See Dkt. 23 at 11-19;
Dkt. 58 at 6-19. Mr. Purkey argues that his ineffective
assistance claims meet the Savings Clause because he
“has not had a meaningful opportunity to present”
them to any Court. Dkt. 23 at 15.
There is no dispute that Mr. Purkey could not have
raised these ineffective assistance claims on direct appeal and that he cannot raise them now in a second or
successive § 2255 motion. Dkt. 23 at 12, 15; Dkt. 49 at
36. Mr. Purkey could not have raised his ineffective as4

Mr. Purkey does not advance any argument for why the
Savings Clause is met for Claims 5 and 7, and the cursory arguments for why his other claims meet the Savings Clause are addressed in Section III.C above.

46a
sistance claims on direct appeal because, except in rare
circumstances, such claims “should be pursued in a collateral proceeding under 28 U.S.C. § 2255.” United
States v. Moody, 770 F.3d 577, 582 (7th Cir. 2014); see
United States v. Bryant, 754 F.3d 443, 444 (7th Cir.
2014) (“A claim of ineffective assistance need not, and
usually as a matter of prudence should not, be raised in
a direct appeal, where evidence bearing on the claim
cannot be presented and the claim is therefore likely to
fail even if meritorious.”). He cannot raise them now in
a second or successive § 2255 motion because his claims
do not meet the criteria in § 2255(h).
That leaves the failure to raise the claims in his initial § 2255 proceeding. Mr. Purkey maintains that he
did not raise them because § 2255 counsel was ineffective.5 Dkt. 23 at 13-18. Mr. Purkey argues that he may
raise these claims now in this § 2241 action based on
Martinez v. Ryan, 566 U.S. 1 (2012), Trevino v. Thaler,
569 U.S. 413 (2013), and Ramirez v. United States, 799
F.3d 845, 853 (7th Cir. 2015). Dkt. 23 at 16-17. The
United States argues that neither the Martinez–
Trevino doctrine nor Ramirez relate to the Savings
Clause analysis, and that this Court should not extend
the holdings of those cases to the entirely different legal question presented here. Dkt. 49 at 42-47.
1. The Martinez–Trevino Doctrine
The Court begins with the Martinez–Trevino doctrine. Both Martinez and Trevino involved state prisoners whose ineffective assistance of trial counsel
claims were deemed procedurally defaulted by a federal
5

Because Mr. Purkey’s claims must be rejected for other reasons, the Court does not address whether § 2255 counsel provided
ineffective assistance by not adequately investigating and presenting Mr. Purkey’s ineffective assistance of trial counsel claims.

47a
court because the claims were not properly raised in
state court.
In Martinez, appointed postconviction counsel
failed to raise an ineffective assistance claim in an Arizona collateral proceeding. Martinez’s postconviction
relief case was dismissed. About a year and half later,
Martinez obtained new counsel and filed new ineffective assistance of counsel claims in a second Arizona
collateral proceeding. The petition was dismissed because Martinez had not raised these claims in his first
collateral proceeding. After exhausting all postconviction procedures available under Arizona law, Martinez
sought habeas relief in federal court.
The District Court denied relief on the basis that
Martinez had procedurally defaulted his ineffective assistance claims by not properly raising them in state
court. After the Ninth Circuit affirmed, the Supreme
Court granted certiorari to answer the “precise question” of “whether ineffective assistance in an initialreview collateral proceeding on a claim of ineffective
assistance at trial may provide cause for a procedural
default in a federal habeas proceeding.” Martinez, 566
U.S. at 9. The Supreme Court held that if state law requires state prisoners to raise ineffective assistance of
trial counsel claims “in an initial- review collateral proceeding, a procedural default will not bar a federal habeas court from hearing a substantial claim of ineffective assistance at trial if, in the initial-review collateral
proceeding, there was no counsel or counsel in that
proceeding was ineffective.” 566 U.S. at 17 (emphasis
added).
In Trevino, the Court considered “whether, as a
systematic matter, Texas affords meaningful review of
a claim of ineffective assistance of trial counsel.” Tre-

48a
vino, at 425. Concluding it did not, the Court extended
the holding of Martinez to jurisdictions like Texas
where, although one can technically raise ineffective
assistance of trial counsel claims on direct review, the
“structure and design” of the system make that “virtually impossible.” 569 U.S. at 416.
2. The Extension of the Martinez–Trevino
Doctrine in the Seventh Circuit
In Ramirez, the Seventh Circuit addressed, to a
limited extent, whether the Martinez–Trevino doctrine
applies in the context of a federal § 2255 proceeding.
The petitioner was a federal prisoner who failed to
timely appeal the denial of his § 2255 motion because
§ 2255 counsel abandoned him. 799 F.3d at 847. Consequently, he was not able to obtain appellate review of
his § 2255 proceeding. Id. at 849. The petitioner then
“moved under Federal Rule of Civil Procedure 60(b)(6)
for relief from the judgment,” arguing “that postconviction counsel was ineffective for causing him to miss the
appeal deadline.” Id. at 848. The District Court denied
the motion, believing that “there is no right to counsel
on collateral review.” Id. (citing Coleman v. Thompson, 501 U.S. 722 (1991)).
The Seventh Circuit resolved two issues. It first
found that the petitioner was not “trying to present a
new reason why he should be relieved of either his conviction or sentence” but instead was “trying to reopen
his existing section 2255 proceeding and overcome a
procedural barrier to its adjudication.” Id. at 850. Under these circumstances, the Seventh Circuit concluded
that the petitioner’s Rule 60(b)(6) motion was permitted and was “not a disguised second or successive motion under section 2255.” Id.

49a
The Seventh Circuit next concluded that the Martinez–Trevino doctrine applies to federal prisoners
“who bring motions for postconviction relief under section 2255.” Ramirez, 799 F.3d at 852. Therefore, under
Rule 60(b)(6), the petitioner could argue that § 2255
counsel’s abandonment allowed him to file an otherwise
untimely appeal. Id. at 854 (“We see no reason to distinguish between actions at the state level that result in
procedural default and the consequent loss of a chance
for federal review [as happened in Martinez and Trevino], and actions at the federal level that similarly lead
to a procedural default that forfeits appellate review.”).
3. Mr. Purkey’s Claims Cannot Proceed Under Martinez, Trevino, or Ramirez
Mr. Purkey argues that under Ramirez, he may
now raise claims of ineffective assistance of trial counsel that were not raised in his § 2255 action due to ineffective assistance of § 2255 counsel. Acknowledging
that he cannot bring a second or successive § 2255 action, Mr. Purkey argues that he nonetheless has the
right to judicial review of his § 2255 proceeding. Dkt.
23 at 15-18. More specifically, he argues that he must
be able to present his claims in a § 2241 action and that
Ramirez supports opening this avenue of review.
The Court disagrees. Martinez, Trevino, and
Ramirez do not involve the Savings Clause and thus
are not controlling. Moreover, nothing in Ramirez
suggests that its holding regarding Martinez–Trevino
applies outside of the § 2255 context. The Seventh Circuit framed the second legal question in Ramirez as
whether Martinez and Trevino “apply to some or all
federal prisoners who bring motions for postconviction
relief under section 2255.” 799 F.3d at 852 (emphasis
added). But this says nothing about whether Martinez–Trevino has any role in demonstrating whether

50a
the Savings Clause is met and thus whether § 2241 is
available. Further, applying Martinez–Trevino to the
narrow circumstances of a Rule 60(b) motion in a § 2255
proceeding does not create a rule that federal prisoners
must have an alternative way to raise ineffective assistance of postconviction counsel when § 2255 is closed.
Ramirez does not address these questions at all. And
unlike the petitioner in Ramirez, Mr. Purkey had appellate review of his § 2255 case. Applying it here
would therefore require a substantial extension of
Ramirez, and the Seventh Circuit has rejected other
opportunities to do so. Cf. Lombardo, 860 F.3d at 559
(holding that Ramirez should not be extended to the
equitable tolling context).
Moreover, Ramirez has been construed narrowly
by the Seventh Circuit to the facts involving abandonment of counsel. See Lombardo v. United States, 860
F.3d 547, 559 (7th Cir. 2017) (“[N]otwithstanding its
discussion of Martinez and Trevino and its embracing
of the principles underlying those cases, Ramirez’s
holding is best construed as resting on [counsel] abandonment.”); see also Adams v. United States, 911 F.3d
397, 404 n.2 (7th Cir. 2018) (citing Ramirez for the
proposition that “[a]bandonment by counsel” can qualify as a procedural defect that can be raised in a Rule
60(b) motion following the denial of § 2255 relief).
For these reasons, the Court rejects Mr. Purkey’s
argument that ineffective assistance of trial counsel
claims that rely on Martinez–Trevino meet the Savings
Clause.6 Mr. Purkey does not cite any federal court

6

Mr. Purkey argues, in reply, that the Martinez–Trevino doctrine permits his fraud-on-the-Court claim (Claim 3) to proceed in
this action. Dkt. 58 at 57-58. For the same reasons it does not

51a
that has accepted this argument, and the federal courts
that have considered this argument have rejected it.
See, e.g., United States v. Sheppard, 742 F. App’x 599
(3d Cir. 2018) (rejecting the petitioner’s argument that
Ramirez shows he meets the Savings Clause because
he can raise the Martinez–Trevino issue in a Rule 60(b)
motion in the underlying § 2255; “Section 2255 together
with Rule 60(b) thus plainly is not inadequate or ineffective to test the legality of [the petitioner’s] conviction and sentence such that he may resort to a § 2241
habeas corpus petition.”); Rojas v. Unknown Party,
2017 WL 4286186, *6 (D. Ariz. May 16, 2017) (“Martinez
and Trevino do not impact the [Savings Clause] analysis or otherwise apply to § 2241 petitions. Simply stated, Martinez and Trevino were based on the narrow
ground of procedural default in the context of a § 2254
petition. The reasoning of these cases has never been
extended or applied by any court to a § 2241 petition.”);
see also Dinwiddie v. United States, No. 2:18-cv-00149JPH-MJD, Dkt. 25 (S.D. Ind. July 25, 2019); Jackman v.
Shartle, 535 F. App’x 87, 89 n.5 (3d Cir. 2013).
The Court concludes that neither Ramirez nor any
other precedent requires it to grant Mr. Purkey the relief he seeks.
G. There is No Structural Problem with § 2255
When Applied to Mr. Purkey’s Case
To the extent that Ramirez may authorize, without
requiring, the Court to extend Ramirez’s holding to the
Savings Clause context, the Court declines to do so.
There is no structural problem with § 2255 when applied to the facts of Mr. Purkey’s case. While Mr.
permit his ineffective assistance claims to proceed, the Court rejects this contention.

52a
Purkey did not succeed with his § 2255 motion, a structural problem requires “something more than a lack of
success with a section 2255 motion.” Webster, 784 F.3d
at 1136. It must “foreclose[] even one round of effective
collateral review, unrelated to the petitioner’s own mistakes.” Poe v. LaRiva, 834 F.3d 770, 773 (7th Cir. 2016)
(citation and quotation omitted). That’s not the case
here.
In his § 2255 action, Mr. Purkey made 17 allegations of ineffective assistance against his trial counsel.
Those claims were heard and adjudicated by the District Court, and the denial of them was affirmed by the
Eighth Circuit.
The record demonstrates that
Mr. Purkey had “‘a reasonable opportunity [in a prior
§ 2255 proceeding] to obtain a reliable judicial determination of the fundamental legality of his conviction and
sentence.’” Chazen, 938 F.3d at 856 (quoting Davenport, 147 F.3d at 609) (emphasis added); see Davenport,
147 F.3d at 609 (“Nothing in 2255 made the remedy
provided by that section inadequate to enable Davenport to test the legality of his imprisonment. He had an
unobstructed procedural shot at getting his sentence
vacated.”). A reasonable opportunity does not include
the opportunity to years later second-guess the selection of the claims that were asserted in the § 2255 action, pick new or “better” claims, and have those claims
subject to judicial review in another judicial district.
Applied to the facts of Mr. Purkey’s case, § 2255 is not
inadequate or ineffective.
Moreover, allowing Mr. Purkey’s ineffective assistance claims to be brought in a § 2241 proceeding would
be contrary to the statutory framework Congress created for federal prisoners seeking postconviction relief.
Congress amended § 2255 in 1996 as part of the Anti-

53a
terrorism and Effective Death Penalty Act (“AEDPA”). Most relevant here, AEDPA limits federal prisoners to one § 2255 motion unless they receive authorization from the Court of Appeals to file a second or successive § 2255 motion. 28 U.S.C. § 2255(h). This limitation was designed to curtail the problem of “repetitive
filings” from federal prisoners challenging their convictions. Garza, 253 F.3d at 922.
Congress chose to “steer[] almost all [federal] prisoner challenges to their convictions and sentences toward § 2255.” Shepherd, 911 F.3d at 862. It did so by
requiring § 2255 motions be filed in the district of conviction, Light, 761 F.3d at 812, and limiting federal prisoners’ access to § 2241 by way of the Savings Clause.
See Davenport, 147 F.3d at 609 (“The purpose behind
the enactment of section 2255 was to change the venue
of postconviction proceedings brought by federal prisoners from the district of incarceration to the district in
which the prisoner had been sentenced.” (citing United
States v. Hayman, 342 U.S. 205, 212-19 (1952)).
Section 2255 “not only relieved the district courts
where the major federal prisons were located from a
heavy load of petitions for collateral relief; it also enhanced the efficiency of the system by assigning these
cases to the judges who were familiar with the records.” Webster, 784 F.3d at 1145.
The Savings Clause “must be applied in light of
[§ 2255’s] history.” Taylor v. Gilkey, 314 F.3d 832 (7th
Cir. 2002); see Unthank v. Jett, 549 F.3d 534, 535 (7th
Cir. 2008) (same). It cannot be interpreted so expansively that it undermines “the careful structure Congress has created.” Garza, 253 F.3d at 921; see Chazen,
938 F.3d at 865 (Barrett, J., concurring) (expressing
“skeptic[ism]” of an argument that, if accepted, “risks

54a
recreating some of the problems that § 2255 was designed to fix”).
In the limited instances where the Seventh Circuit
has found the Savings Clause met, the Court crafted
narrow holdings so as to not “creat[e] too large an exception to the exclusivity of section 2255.” Webster, 784
F.3d at 1140; see id. at 1140 n.9. Here, that’s not possible. The petitioners in Davenport, Garza, and Webster
each presented a very specific “problem” based on a
unique set of facts presented. In each case the relief
granted was symmetrical, and thus inherently limited
to a very small category of cases involving scenarios
that could not or were not foreseen by Congress. In
Davenport, for example, the petitioner’s “problem” was
that § 2255(h) did not permit a successive petition for
new rules of statutory law. To fix this problem, the
Seventh Circuit crafted a narrow exception with three
specific requirements limiting when and how a petitioner could pass through this exception. See Beason,
926 F.3d at 935; Davenport, 147 F.3d at 610-12.
Here, there is no very specific “problem” based on
a unique set of facts that could be remedied through a
narrowly drawn rule that would apply to a very small
category of cases. Mr. Purkey’s “problem” is that after
availing himself of the postconviction relief process created by Congress, including appellate review, he did
not get the outcome that he wanted on his claims of ineffective assistance of counsel. But there is no “something more,” Webster, 784 F.3d at 1136, so there is no
structural problem with § 2255.
Unlike the limited types of claims that the Seventh
Circuit has held to meet the Savings Clause in Davenport (statutory claims based on a retroactive change in
the law), Garza (claims based on new decisions from

55a
international tribunals), and Webster (Atkins or Roper
claims based on newly discovered evidence that existed
at the time of the original proceedings and could not be
discovered through reasonable diligence), Mr. Purkey
asks the Court to allow ineffective assistance of trial
counsel claims to proceed through the Savings Clause
on the basis that § 2255 counsel was ineffective. But
unlike the relatively narrow categories of claims allowed to proceed in Davenport, Garza, and Webster, ineffective assistance of trial claims are ubiquitous. See
Burt v. Titlow, 571 U.S. 12, 19 (2013) (emphasizing that
ineffective assistance of counsel claims are “common”
and have been “adjudicated in countless criminal cases
for nearly 30 years”). To allow such a frequently litigated claim to be raised in a § 2241 petition would dismantle the very structure of § 2255. “If error in the
resolution of a collateral attack were enough to show
that § 2255 is inadequate or ineffective, many of the
amendments made in 1996 would be set at naught.”
Taylor, 314 F.3d at 836.
IV
For the foregoing reasons, the claims Mr. Purkey
presents in his petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2241 are barred by the Savings
Clause, 28 U.S.C. § 2255(e). His ineffective assistance
of trial counsel claims (Claims 1, 2, and 8) are rejected
for the reasons set forth in Sections III.D and III.E.
His remaining five claims fail to fall within any of the
Seventh Circuit’s Savings Clause precedents, and Mr.
Purkey does not advance any basis for extending those
precedents to these claims. Accordingly, his petition is
denied with prejudice. See Prevatte v. Merlak, 865 F.3d
894, 901 (7th Cir. 2017) (explaining that dismissals pursuant to § 2255(e) are with prejudice).

56a
Because the Court has resolved Mr. Purkey’s
claims, his motion to stay his execution pending resolution of his claims, dkt. [4], is denied as moot. Final
Judgment consistent with this Order shall issue.
SO ORDERED.
Date: 11/20/2019
/s/ James Patrick Hanlon
United States District Judge
Southern District of Indiana
Distribution:
*

*

*

57a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 19-3318
WESLEY IRA PURKEY
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA, et al.,
Respondents-Appellees.
Filed: July 13, 2020
Appeal from the United States District Court for the
Southern District of Indiana, Terre Haute Division.
No. 2:19-cv-00414-JPH-DLP
James P. Hanlon, Judge.
ORDER
Before DIANE P. WOOD, Circuit Judge, MICHAEL
P. BRENNAN and AMY J. ST. EVE, Circuit Judge.
Wesley Ira Purkey, a death-row inmate at the U.S.
Penitentiary in Terre Haute, currently has a scheduled
execution date of July 15, 2020, two days from now. As
we explain further below, this court heard oral argument in Purkey’s appeal from the district court’s order
denying him relief under 28 U.S.C. § 2241 on June 16,
2020. Recognizing the gravity of the matter, the court
sua sponte expedited its consideration of the appeal
and issued its opinion affirming the district court on Ju-

58a
ly 2, 2020, just 16 days after oral argument. In that
opinion, although we rejected Purkey’s arguments on
the merits, we recognized that at least two of them presented serious issues. Applying the approach dictated
by Nken v. Holder, 556 U.S. 418 (2009), we concluded
that a brief stay permitting the orderly conclusion of
proceedings in this court was warranted. Sl. op. at 26–
27. The government has taken two steps in response to
that holding: first, it has asked us to reconsider this
stay; and second, it has filed an application with the Supreme Court asking that court to set aside the stay.
See Watson v. Purkey, U.S. No. 20A4 (filed July 11,
2020). We explain further in this order why we issued
the temporary stay, which by its terms is limited to this
litigation and does not affect any other cases Purkey
has filed in other courts, and why we are not persuaded
that it should be set aside.
Purkey’s primary argument on appeal was that he
received constitutionally inadequate assistance of counsel at his trial for the murder and kidnapping of Jennifer Long. Although a lawyer filed a motion on his behalf under 28 U.S.C. § 2255 in which he challenged trial
counsel’s effectiveness, Purkey is now attempting to
assert that postconviction counsel was also ineffective
in several critical respects. Barred from filing a successive motion under section 2255, he argues that his only
recourse is to the general habeas corpus statute, 28
U.S.C. § 2241. If that door is closed to him, he contends, he could literally go to his death without ever
having the opportunity first to demonstrate that his
Sixth Amendment rights were violated, and second, if
he succeeds, to have a new trial untainted by that failing. We found this to be a serious argument, although
not one that we felt free to accept, given our understanding of the scope of the “safety valve” language in

59a
28 U.S.C. § 2255(e). It is serious because all defendants, including capital defendants, have a right to constitutionally effective counsel. The information proffered in Purkey’s section 2241 petition gives us concern
that Purkey never received such counsel.
With that in mind, we turned in our July 2 opinion
to the factors governing the issuance of a stay pending
the orderly conclusion of proceedings in this court—
proceedings that at a minimum may involve the filing of
a petition for panel or en banc rehearing, see Fed. R.
App. P. 40(a)(1)(A) (due within 45 days after entry of
judgment if the United States is a party), and that require the issuance of the court’s mandate, see Fed. R.
App. P. 41(b) (occurring seven days after resolution of
any petition for rehearing, or after the time for such a
petition has elapsed). As the government has pointed
out in its motion, our stay thus would expire at the earliest 52 days after our July 2 judgment, or on Monday,
August 24 (since the last day falls on the weekend).
That date is obviously a few weeks after July 15, the
government’s desired execution date.
This brief stay is necessary in order to complete
our proceedings in an orderly way. The government
has offered no reason why we should fore-shorten the
time for the filing of a petition for rehearing, or why we
should order the mandate to issue forthwith. Nor has it
provided any reason to support a finding that it would
experience difficulty in re-scheduling Purkey’s execution date for a time after our court has completed its
review.
Against this, the government relies heavily on its
assumption that Purkey has failed to show a “strong”
possibility of success on the merits of his claim, as required by the first factor identified in Nken. Its prima-

60a
ry reason for this assumption is the fact that this court
rejected Purkey’s theory. But that cannot be enough—
otherwise any applicant for a stay of judgment would
automatically lose, because that applicant lost in the
rendering court. Moreover, a close look at Nken shows
that the Supreme Court in that case adopted the traditional approach toward stays, not one specially tailored
to a particular underlying law (there, the immigration
statutes). That is why it focused not just on the likelihood of success on the merits, but also on the irreparable harm the applicant would suffer. An immigrant
such as Nken can continue to pursue many forms of relief even after removal, but once someone has been executed, that is the end. More broadly, the Nken Court
held that the evaluation of a stay requires consideration
of all four factors, not just the first two. That is what
we did. We add that, in evaluating the law, we are not
free to speculate about the way in which the Supreme
Court would view a new situation, even if we were to
think that there are compelling reasons to extend existing precedents.
But, to be clear, our stay reflects the fact that we
concluded that Purkey has made a strong argument to
the effect that, under the Supreme Court’s decisions in
Martinez v. Ryan, 566 U.S. 1 (2012), and Trevino v.
Thaler, 569 U.S. 413 (2013), a habeas corpus petitioner
who has never been able to test the effectiveness of his
counsel under the Sixth Amendment can overcome his
procedural default in failing to do so in his first and only
motion under section 2255. Such a petitioner, the reasoning continues, would be entitled to a hearing on the
merits using the vehicle of section 2241. Only the Supreme Court can tell us whether this is a proper application of its decisions, but we deem Purkey’s chances of
success on this point to be strong enough to satisfy

61a
Nken’s first requirement, and as we stated before,
there can be no debate about the irreparable harm he
will experience if the government executes him on
Wednesday, July 15.
We therefore DENY the government’s motion for
reconsideration. All relevant deadlines associated with
a petition for rehearing remain in place for Purkey.

63a
APPENDIX D
RELEVANT STATUTORY PROVISIONS
28 U.S.C. § 2241
§ 2241. Power to grant writ
(a) Writs of habeas corpus may be granted by the Supreme Court, any justice thereof, the district courts
and any circuit judge within their respective jurisdictions. The order of a circuit judge shall be entered in
the records of the district court of the district wherein
the restraint complained of is had.
(b) The Supreme Court, any justice thereof, and any
circuit judge may decline to entertain an application for
a writ of habeas corpus and may transfer the application for hearing and determination to the district court
having jurisdiction to entertain it.
(c) The writ of habeas corpus shall not extend to a
prisoner unless—
(1) He is in custody under or by color of the authority of the United States or is committed for trial before some court thereof; or
(2) He is in custody for an act done or omitted in
pursuance of an Act of Congress, or an order, process, judgment or decree of a court or judge of the
United States; or
(3) He is in custody in violation of the Constitution
or laws or treaties of the United States; or
(4) He, being a citizen of a foreign state and domiciled therein is in custody for an act done or omitted under any alleged right, title, authority, privilege, protection, or exemption claimed under the
commission, order or sanction of any foreign state,

64a
or under color thereof, the validity and effect of
which depend upon the law of nations; or
(5) It is necessary to bring him into court to testify
or for trial.
(d) Where an application for a writ of habeas corpus is
made by a person in custody under the judgment and
sentence of a State court of a State which contains two
or more Federal judicial districts, the application may be
filed in the district court for the district wherein such
person is in custody or in the district court for the district within which the State court was held which convicted and sentenced him and each of such district courts
shall have concurrent jurisdiction to entertain the application. The district court for the district wherein such
an application is filed in the exercise of its discretion and
in furtherance of justice may transfer the application to
the other district court for hearing and determination.
(e)(1) No court, justice, or judge shall have jurisdiction to hear or consider an application for a writ of habeas corpus filed by or on behalf of an alien detained by
the United States who has been determined by the
United States to have been properly detained as an enemy combatant or is awaiting such determination.
(2) Except as provided in paragraphs (2) and (3) of
section 1005(e) of the Detainee Treatment Act of
2005 (10 U.S.C. 801 note), no court, justice, or judge
shall have jurisdiction to hear or consider any other
action against the United States or its agents relating to any aspect of the detention, transfer, treatment, trial, or conditions of confinement of an alien
who is or was detained by the United States and
has been determined by the United States to have
been properly detained as an enemy combatant or
is awaiting such determination.

65a
28 U.S.C. § 2255
§ 2255. Federal custody; remedies on motion attacking sentence
(a) A prisoner in custody under sentence of a court established by Act of Congress claiming the right to be
released upon the ground that the sentence was imposed in violation of the Constitution or laws of the
United States, or that the court was without jurisdiction to impose such sentence, or that the sentence was
in excess of the maximum authorized by law, or is otherwise subject to collateral attack, may move the court
which imposed the sentence to vacate, set aside or correct the sentence.
(b) Unless the motion and the files and records of the
case conclusively show that the prisoner is entitled to
no relief, the court shall cause notice thereof to be
served upon the United States attorney, grant a
prompt hearing thereon, determine the issues and
make findings of fact and conclusions of law with respect thereto. If the court finds that the judgment was
rendered without jurisdiction, or that the sentence imposed was not authorized by law or otherwise open to
collateral attack, or that there has been such a denial or
infringement of the constitutional rights of the prisoner
as to render the judgment vulnerable to collateral attack, the court shall vacate and set the judgment aside
and shall discharge the prisoner or resentence him or
grant a new trial or correct the sentence as may appear
appropriate.
(c) A court may entertain and determine such motion
without requiring the production of the prisoner at the
hearing.

66a
(d) An appeal may be taken to the court of appeals
from the order entered on the motion as from a final
judgment on application for a writ of habeas corpus.
(e) An application for a writ of habeas corpus in behalf
of a prisoner who is authorized to apply for relief by
motion pursuant to this section, shall not be entertained
if it appears that the applicant has failed to apply for
relief, by motion, to the court which sentenced him, or
that such court has denied him relief, unless it also appears that the remedy by motion is inadequate or ineffective to test the legality of his detention.
(f) A 1-year period of limitation shall apply to a motion
under this section. The limitation period shall run from
the latest of—
(1) the date on which the judgment of conviction
becomes final;
(2) the date on which the impediment to making a
motion created by governmental action in violation
of the Constitution or laws of the United States is
removed, if the movant was prevented from making a motion by such governmental action;
(3) the date on which the right asserted was initially recognized by the Supreme Court, if that
right has been newly recognized by the Supreme
Court and made retroactively applicable to cases on
collateral review; or
(4) the date on which the facts supporting the
claim or claims presented could have been discovered through the exercise of due diligence.
(g) Except as provided in section 408 of the Controlled
Substances Act, in all proceedings brought under this
section, and any subsequent proceedings on review, the

67a
court may appoint counsel, except as provided by a rule
promulgated by the Supreme Court pursuant to statutory authority. Appointment of counsel under this section shall be governed by section 3006A of title 18.
(h) A second or successive motion must be certified as
provided in section 2244 by a panel of the appropriate
court of appeals to contain—
(1) newly discovered evidence that, if proven and
viewed in light of the evidence as a whole, would be
sufficient to establish by clear and convincing evidence that no reasonable factfinder would have
found the movant guilty of the offense; or
(2) a new rule of constitutional law, made retroactive to cases on collateral review by the Supreme
Court, that was previously unavailable.

